APPENDIX

1a

APPENDIX A
In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 19-3077
RAYMOND MARLING,
Petitioner-Appellee,
v.
FRANK LITTLEJOHN, Deputy Warden, Wabash Valley
Correctional Facility,
Respondent-Appellant.
____________________
Appeal from the United States District Court for the
Southern District of Indiana, Terre Haute Division.
No. 2:19-cv-00002-JRS-DLP —
James R. Sweeney II, Judge.
____________________
ARGUED APRIL 28, 2020 — DECIDED JULY 13, 2020
____________________
Before EASTERBROOK, RIPPLE, and SCUDDER,
Circuit Judges.
EASTERBROOK, Circuit Judge.
After Raymond
Marling was arrested, on a warrant, while driving his
car, police in Indiana took an inventory of its contents.
The trunk held a locked box. An officer opened the box
with a screwdriver and found illegal drugs. Together

2a
with other evidence (including the fact that Marling
was armed, despite felony convictions that made this
unlawful), these drugs played a role in his convictions
and 38-year sentence, which includes a 20-year
enhancement for being a habitual criminal.
Marling’s lawyer asked the trial court to suppress
the contents of the box, arguing that opening it was
improper. That argument lost in the trial court and
lost again on appeal. Marling v. State, 2014 Ind. App.
Unpub. LEXIS 1305 (Sept. 30, 2014). He ﬁled a
collateral attack, this time arguing that his trial and
appellate lawyers had furnished ineffective assistance
by not presenting the best reasons for objecting to the
box’s opening. He contended that counsel should have
argued that opening his box damaged it, violating the
police department’s policy. The post-conviction court
held a hearing, took evidence, and rejected this
contention. The court of appeals affirmed, concluding
among other things that counsel’s omission was not
prejudicial because the record did not show that the
box had been damaged. 2018 Ind. App. Unpub. LEXIS
610 (May 25, 2018). But a federal district court issued
a writ of habeas corpus, 2019 U.S. Dist. LEXIS 163777
(S.D. Ind. Sept. 24, 2019), ruling that a photograph in
the record shows damage to the box’s lock. This
meant, the judge stated, that the state court’s ﬁnding
had been rebutted by clear and convincing evidence.
28 U.S.C. § 2254(e)(1).
A factual mistake by a state court does not support
collateral relief, unless a correction shows that the
petitioner “is in custody in violation of the
Constitution or laws or treaties of the United States.”
28 U.S.C. § 2254(a). Ineffective assistance of counsel
suffices, because it violates the Sixth Amendment

3a
(applied to the states by the Fourteenth). Indiana has
assumed that failure of counsel at trial and on appeal
to choose the best argument in support of a motion can
violate the Sixth Amendment, despite many cases
holding that it is essential to evaluate counsel’s overall
performance rather than ﬁnd a single error. See, e.g.,
Strickland v. Washington, 466 U.S. 668, 691–96
(1984); Williams v. Lemmon, 557 F.3d 534, 538–40
(7th Cir. 2009). Because Indiana has not made this
potential argument we do not pursue it. See United
States v. Sineneng-Smith, 140 S. Ct. 1575 (2020). Still,
it remains necessary to show that counsel’s decision
was both substantively deﬁcient and prejudicial. The
state’s appellate court applied the Strickland
standard, and our review of the outcome under
§ 2254(d) has been called “doubly deferential”.
Knowles v. Mirzayance, 556 U.S. 111, 123 (2009).
The district judge found both deﬁcient performance
and prejudice because Florida v. Wells, 495 U.S. 1
(1990), holds that the validity of an inventory search
depends on the police department having a policy
about when to take inventories. The judge read Wells
to say that compliance with this policy is essential,
which implies that a violation of a local policy also
violates the Constitution. The judge read the local
policy at issue to forbid damage to a container, which
led him to ﬁnd a constitutional error, which counsel
had failed to call to the state court’s attention. We
think that the judge has misunderstood both Wells and
the local policy.
Wells holds that a policy is important, but not
because the Constitution demands that states
suppress evidence acquired through violations of state
or local rules. That possibility was rejected in Virginia

4a
v. Moore, 553 U.S. 164 (2008), among many other
decisions. See also, e.g., Wilson v. Corcoran, 562
U.S. 1, 5 (2010) (federal court may not issue a writ
under § 2254 based on an asserted error of state law).
Wells explained why a policy matters:
Our view that standardized criteria or
established routine must regulate the opening of
containers found during inventory searches is
based on the principle that an inventory search
must not be a ruse for a general rummaging in
order to discover incriminating evidence. The
policy or practice governing inventory searches
should be designed to produce an inventory. The
individual police officer must not be allowed so
much latitude that inventory searches are turned
into a purposeful and general means of
discovering evidence of crime.
But in forbidding uncanalized discretion to police
officers conducting inventory searches, there is no
reason to insist that they be conducted in a totally
mechanical “all or nothing” fashion. “[I]nventory
procedures serve to protect an owner’s property
while it is in the custody of the police, to insure
against claims of lost, stolen, or vandalized
property, and to guard the police from danger.” A
police officer may be allowed sufficient latitude to
determine whether a particular container should
or should not be opened in light of the nature of
the search and characteristics of the container
itself.
Thus, while policies of opening all
containers or of opening no containers are
unquestionably permissible, it would be equally
permissible, for example, to allow the opening of
closed containers whose contents officers

5a
determine they are unable to ascertain from
examining the containers’ exteriors.
The
allowance of the exercise of judgment based on
concerns related to the purposes of an inventory
search does not violate the Fourth Amendment.
495 U.S. at 4 (cleaned up).
Thus “open all
containers” is a valid policy. So is “exercise discretion”.
What matters is that there be some policy that makes
the inventory something other than a search based on
belief that it will turn up evidence of crime. The
Justices did not suggest that every departure from any
policy violates the Fourth Amendment. Suppose a
local policy calls for opening a locked box with a
hammer and chisel, while one officer uses a lockpick
instead. Or suppose a policy says that items are to be
stored in evidence bags, while one officer put them in
boxes.
Such departures from a policy lack
constitutional signiﬁcance under the rationale of
Wells.
The North Vernon Police Department, whose
officers stopped Marling’s car and opened the box, has
an inventory policy. Section 49.3.2 of General Order
49 provides:
Inventory the contents of suitcases, boxes, and
other containers.
…
Closed and/or Locked Containers - Inventory all
closed or locked containers. If a situation exists
that requires extreme measures (extensive time,
manpower and equipment), and/or unreasonable
potential damage to property, the officer should
avoid opening the container, but should document
why the container was not opened.

6a
This says that all locked containers are to be opened
and inventoried, though the officer “should avoid”
opening a container when that would cause
“unreasonable potential damage” to property. The
policy is valid under Wells: it combines a presumptive
rule of opening everything with a discretionary
(“should”) exception when the damage would be
“unreasonable” in the officer’s judgment. And because
the policy is valid, the search is valid too. A federal
judge’s disagreement with how an officer exercises
discretion under a local policy does not make a search
unconstitutional in retrospect. See United States v.
Cartwright, 630 F.3d 610, 616 (7th Cir. 2010). Any
other understanding would amount to using the
Constitution to enforce the details of local law, which
Moore and many other decisions say is improper.
It follows that the district judge’s disagreement with
the state judiciary about whether the officer followed
the local policy is not a sufficient ground for collateral
relief. And, for what it is worth, we do not see a
violation of the local policy.
The judge included in his opinion a picture showing
some damage to the box’s lock. That was enough, he
thought, to establish the policy’s violation, even
though Marling did not draw this picture to the
attention of the state’s appellate court. Let us suppose
that the judges should have examined the picture
anyway. Still, the policy does not forbid all damage; it
forbids unreasonable damage. This box was intact,
and the lock could have been ﬁxed or replaced. Why
was the damage “unreasonable”? The judge did not
say. Then there is the discretionary language in the
General Order. The judge apparently understood
Wells to forbid the use of discretion, such as evaluating

7a
when a potential for damage would be “unreasonable”.
Yet the principal holding of Wells is that discretion
about inventory searches is compatible with the
Fourth Amendment. The Justices wrote:
Nothing in South Dakota v. Opperman, 428 U.S.
364 (1976), or Illinois v. Lafayette, 462 U.S. 640
(1983), prohibits the exercise of police discretion
so long as that discretion is exercised according to
standard criteria and on the basis of something
other than suspicion of evidence of criminal
activity.
Wells, 495 U.S. at 3–4 (cleaned up), quoting from
Colorado v. Bertine, 479 U.S. 367, 375 (1987). The
officer who opened and inventoried the contents of this
box acted within the scope of discretion granted by
General Order 49. As Wells requires, discretion under
the policy is unrelated to beliefs about the container’s
contents. If the officer did too much (“unreasonable”)
damage, that could have been the basis for a tort claim
under state law. It is not a basis for a conclusion that
the Fourth Amendment required the suppression of
incriminating evidence. It follows that counsel did not
violate the Sixth Amendment by omitting this line of
argument.
REVERSED

8a

APPENDIX B

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
RAYMOND MARLING,
Petitioner,
v.
DICK BROWN,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

No. 2:19-cv00002-JRS-DLP

Order Granting Petition for a
Writ of Habeas Corpus
Petitioner Raymond Marling was convicted in an
Indiana state court of various drug and firearm
offenses. Mr. Marling now seeks a writ of habeas
corpus pursuant to 28 U.S.C. § 2254 challenging his
convictions for possession of cocaine with intent to
deliver, possession of cocaine and a firearm, and
possession of a Schedule IV controlled substance. He
argues that his trial and appellate counsel were
ineffective for not arguing that key evidence should
have been suppressed because the North Vernon
Police failed to follow their own written procedures in
executing an inventory search. Mr. Marling’s petition
is granted.

9a
I. Background
The Indiana Court of Appeals summarized the
relevant facts and procedural history as follows:
[T]here was an active arrest warrant for Marling
from Jackson County [and reason to believe] that
Marling might be involved in drug activity and
that he might be in possession of a handgun.
Detective Sandefur told local police departments
to look for Marling.
***
North Vernon Police Officer Jeffrey Day
responded and initiated a traffic stop on County
Road 350 North. Marling stopped the vehicle in
the traffic lane, so that only the oncoming traffic
lane was passable. Officer Day ordered Marling
to step out of the car, and Detective Sandefur
handcuffed him. Marling was wearing an empty
shoulder holster under his shirt.
Officer Day looked inside of the vehicle and saw
that there were no passengers. He observed a
handgun between the driver’s seat and the
console; the hammer of the handgun was cocked,
but the safety lock was on. Marling told Officer
Day that he did not have a permit for the
handgun. Officer Day took Marling to jail, where
$686 was inventoried from Marling’s billfold.
Marling asked Officer Day to contact his mother
to ask if she could remove money from a black bag
in the Avenger and remove the vehicle from
impoundment.
North Vernon Police Sergeant Craig Kipper
conducted a search of the Avenger prior to
impoundment in accordance with North Vernon

10a
Police General Order 49, which provides for an
inventory search prior to the impoundment of a
vehicle if a driver was arrested and was driving
the vehicle immediately before arrest.
The
inventory search included a search of the vehicle
in all locations where items of value may be
located, including closed and locked containers.
During his search, Sergeant Kipper first took
possession of the handgun. He then found several
cellphones with chargers, a clear bag with several
syringes, four Clonazepam pills, a schedule IV
drug, and a clear container with white powder
residue. He also found a prescription pill bottle
containing Intuniv, a legend drug, one
Hydroxyine, a legend drug, and one Vyvanse, a
schedule II drug. In the passenger compartment,
Sergeant Kipper found $1,000 secured with a
rubber band inside a laptop bag. In the trunk, the
Sergeant found two rifles, a duffel bag
containing .9mm ammunition, a box of syringes,
thirty-two loose syringes, and a digital scale that
looked like a cell phone. Sergeant Kipper also
discovered a metal combination lockbox in the
trunk; he opened the box with a screwdriver. The
box held a clear baggie containing .51 grams of
cocaine, various capsules containing dimethyl
sulfone, a cutting agent, four baggies with white
residue, and one Clonazepam.
***
On May 1, 2013, the State charged Marling with
Count I, class B felony possession of cocaine with
intent to deliver; Count II, class C felony
possession of cocaine and a firearm; Count III,

11a
class C felony carrying a handgun without a
license; Count IV, class D felony possession of a
schedule IV controlled substance; Count V, class
D felony possession of a schedule II controlled
substance; Counts VI and VII, two counts of class
D felony possession of a legend drug; and Count
VIII, class D felony unlawful possession of a
syringe.
Marling v. State, 2014 WL 4854995, at *1–2 (Ind. Ct.
App. Sept. 30, 2014) (“Marling I”) (citations omitted).
Before trial, defense counsel moved to suppress all
evidence found in the lockbox. Tr. App’x Vol. I at 51.
Relying on State v. Lucas, 859 N.E.2d 1244 (Ind. Ct.
App. 2007), counsel argued that the police were not
permitted to open locked boxes during an inventory
search.1 Id. The State responded by noting that Lucas
does not prohibit police from opening a locked
container; instead, “[t]he officers have to be following
a procedure by their department and that’s what [the
officer] did in this case.” Tr. Trans. Vol. II at 48. And
North Vernon Police Department General Order 49
directs officers to
[i]nventory all closed and locked containers. If a
situation exists that requires extreme measures
1

Counsel cited George v. State, 901 N.E.2d 590 (Ind. App. Ct.
2009), not Lucas. But George repeats Lucas’s key holding: “In
Lucas, the object of the search—contraband inside a locked box—
had not been lawfully seized because the policy was silent
regarding whether the officers were authorized to open locked
containers.” Id. at 595. And aside from restating that holding,
George offered no support for Mr. Marling’s argument. See id. at
596–97 (holding that laboratory analysis of pills found in closed
but unlocked container was not an additional Fourth Amendment
“search”).

12a
(extensive time, manpower and equipment),
and/or unreasonable potential damage to
property, the officer should avoid opening the
container, but should document why the
container was not opened.
Marling II, 2018 WL 2375769, at *2. Despite apparent
damage to the lockbox from the search, counsel did not
argue that the police had violated their inventory
search procedures.
The trial court denied
Mr. Marling’s motion to suppress, relying on General
Order 49. Tr. App’x Vol. I at 70 (“North Vernon had a
duly promulgated Impoundment Procedure in
effect . . . which authorized the search and opening of
closed and locked containers within vehicles.”).
After a jury trial, Mr. Marling was convicted of two
counts of possession of a legend drug and one count
each of possession of cocaine with intent to deliver,
possession of cocaine and a firearm, possession of a
schedule IV controlled substance, unlawful possession
of a syringe, and possession of a handgun by a felon.
Id. at *2. The trial court sentenced him to a total of 38
years in prison, including a 20-year enhancement for
habitual offender status. Id. at *2–3.
Mr. Marling appealed, arguing (among other
things) that the trial court erred in denying his motion
to suppress. Dkt. 14-5 at 11–13. The appellate court
affirmed, Marling I, 2014 WL 4854995, at *7, and the
Indiana Supreme Court denied leave to transfer, dkt.
14-3 at 7.
Mr. Marling next filed a state post-conviction
petition, arguing (among other things) that trial and
appellate counsel were ineffective for not arguing
that the lockbox evidence should have been

13a
suppressed because Sergeant Kipper failed to follow
General Order 49. Dkt. 15-2 at 31–33. The trial court
denied the petition, and the Indiana Court of Appeals
affirmed. Marling v. State, 2018 WL 2375769, at *3–
6 (Ind. Ct. App. May 25, 2018) (“Marling II”). The
Indiana Supreme Court denied Mr. Marling’s
petition to transfer. Dkt. 14-4 at 10.
Mr. Marling then filed a petition for a writ of
habeas corpus in this Court. His operative petition
in this action is the amended petition filed February
26, 2019. Dkt. 12.
II. Applicable Law
A federal court may grant habeas relief only if the
petitioner demonstrates that he is in custody “in
violation of the Constitution or laws . . . of the United
States.” 28 U.S.C. § 2254(a). Where a state court has
adjudicated the merits of a petitioner’s claim, a federal
court cannot grant habeas relief unless the state
court’s adjudication
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.
28 U.S.C. § 2254(d). “A state court’s determination
that a claim lacks merit precludes federal habeas relief
so long as fairminded jurists could disagree on the
correctness of the state court’s decision.” Harrington v.
Richter, 562 U.S. 86, 101 (2011). “If this standard is

14a
difficult to meet, that is because it was meant to be.”
Id. at 102.
“The decision federal courts look to is the last
reasoned state-court decision to decide the merits of
the case.” Dassey v. Dittmann, 877 F.3d 297, 302 (7th
Cir. 2017) (en banc). If the last reasoned state court
decision did not adjudicate the merits of a claim, or if
the adjudication was unreasonable under § 2254(d),
federal habeas review of that claim is de novo. Thomas
v. Clements, 789 F.3d 760, 766–68 (7th Cir. 2015).
III. Discussion
Police may not open locked containers during a
warrantless inventory search unless they are
following reasonable standardized procedures.
Florida v. Wells, 495 U.S. 1, 4 (1990). Whether an
officer followed reasonable standardized procedures
during an inventory search is a question of fact.
United States v. Cartwright, 630 F.3d 610, 613 (7th
Cir. 2010).
Mr. Marling argues that trial and appellate counsel
were ineffective for not arguing that the lockbox
evidence should have been suppressed because
Sergeant Kipper failed to follow General Order 49.
Specifically, he argues that opening the lockbox with a
screwdriver created “unreasonable potential damage
to property.” Dkt. 12 at 23.
The Indiana Court of Appeals did not find that trial
or appellate counsel made a strategic decision to not
argue that Sergeant Kipper failed to follow General
Order 49. Instead, the court relied exclusively on a
factual finding that Sergeant Kipper followed General
Order 49:

15a
To the extent Marling argues that his trial and
appellate counsel failed to argue that the State
did not follow its written policy because the box
was damaged, we observe that Marling asserts
that, “[b]y the State’s own evidence, the police
report of Officer Kipper, he had to break open the
locked box with a screw driver, causing damage to
the property.” However, page 51 of the
Appellant’s Appendix, cited by Marling, merely
states:
“In the trunk was a silver square
combination lock box. The box was locked. The
locked box was opened with a screw driver. In the
locked box was more syringes and several items
that are used for the ingestion of illegal
substances.” We cannot say that this document
alone establishes that the box was damaged.
Id. at *5 (citations omitted); see also id. at *5 n.1
(“Given that the State presented its inventory
procedure and the portion of the record cited by
Marling does not reveal damage to the box and he does
not point elsewhere in the record for any damage to
the box, we cannot say that the police failed to perform
the search in conformity with their procedures.”).
The state court’s factual finding that the lockbox
was not damaged2 is both unreasonable under 28
U.S.C. § 2254(d)(2) and rebutted by clear and
convincing evidence, as required by 28 U.S.C.
§ 2254(e)(1). State’s Exhibit 26 is a picture of the
2

The state appellate court’s exclusive focus on actual damage to
the lockbox—instead of “unreasonable potential damage” as
General Order 49 provides—was misguided but not
unreasonable. In practice, actual damage and “unreasonable
potential damage” may track very closely to each other.

16a
lockbox that reveals a damaged (and likely inoperable)
latch:

While Mr. Marling did not cite Exhibit 26 in his
post-conviction appellant’s brief, the State cited it
multiple times in their appellee’s brief. See dkt. 14-10
at 12, 20, 21. The respondent does not argue that the
Indiana Court of Appeals could ignore the exhibit
merely because the State (and not Mr. Marling)
brought it to the court’s attention.
The state appellate court’s decision thus relied on
an unreasonable factual determination, which means
this Court must review Mr. Marling’s claim de novo.
Thomas, 789 F.3d at 766–68. To prevail, Mr. Marling
must show “both that his attorney’s performance fell
below an objective standard of reasonableness and
that there was a reasonable probability that the
outcome of the relevant proceedings . . . would have
been different but for his counsel’s failings.” Monroe v.

17a
Davis, 712 F.3d 1106, 1116 (7th Cir. 2013) (citing
Strickland v. Washington, 466 U.S. 668, 687 (1984)).
The first question is whether counsel’s performance
was deficient. It was. Counsel, relying on Lucas,
moved to suppress the lockbox evidence merely
because Sergeant Kipper opened the locked container
during the search. But when the State argued that,
unlike the inventory search policy in Lucas, General
Order 49 directed officers to open locked containers in
an inventory search, counsel failed to raise the obvious
rejoinder that the police had failed to comply with
General Order 49. This failure was an unreasonable
“lapse in professional judgment,” not a strategic
decision that is entitled to deference. Monroe, 712
F.3d at 1118.
Trial counsel’s performance was also prejudicial.
There is a reasonable probability that the trial court
would have granted Mr. Marling’s motion to suppress
as to the lockbox evidence if counsel had argued that
Sergeant Kipper violated General Order 49. The
respondent argues that counsel’s performance was not
prejudicial because prying open the latch on a lockbox
was “hardly an extreme measure or one that would
foreseeably cause ‘unreasonable potential damage’ to
the property.” Dkt. 14 at 12. The Court takes no
position on this argument except to find a reasonable
probability that the state trial court could have
disagreed with it. Indeed, the trial court on postconviction review appeared to find that prying open
the lockbox was an extreme measure. Dkt. 15-2 at 128
(“These facts justified extreme measures necessitating
opening a lockbox with a screwdriver.”).

18a
Three of Mr. Marling’s convictions—those for
possession of cocaine with intent to deliver, possession
of cocaine and a firearm, and possession of a Schedule
IV controlled substance—relied on evidence found in
the lockbox.
If the trial court had granted
Mr. Marling’s motion to suppress that evidence—and
there is a reasonable probability it would have—the
outcome of his trial on these counts very likely would
have been different. Thus, there is a reasonable
probability that Mr. Marling’s trial outcome would
have been different, so Strickland’s prejudice prong is
satisfied.
Because trial counsel’s performance was deficient
and prejudicial, Mr. Marling’s petition for a writ of
habeas corpus is granted. The Court need not
address his related ineffective assistance of appellate
counsel claim.
IV. Remedy
Mr. Marling asks this Court to order a new trial.
But if the state trial court again denies Mr. Marling’s
suppression motion, a new trial would be unnecessary.
Accordingly, within 90 days of this Order, the
State shall either (1) reopen proceedings in the
state trial court and allow Mr. Marling to file a
new motion to suppress, (2) announce their
intent to retry Mr. Marling, or (3) release
Mr. Marling from custody on the convictions for
possession of cocaine with intent to deliver,
possession of cocaine and a firearm, and
possession of a Schedule IV controlled
substance.
Final judgment shall now enter.

19a
IT IS SO ORDERED.
Date: 9/24/2019

/s/ James R. Sweeney II
JAMES R. SWEENEY II,
JUDGE
United States District Court
Southern District of Indiana

Distribution:
RAYMOND MARLING
995571
WABASH VALLEY - CF
WABASH VALLEY CORRECTIONAL FACILITY Inmate Mail/Parcels
Electronic Service Participant - Court Only
Andrew A. Kobe
INDIANA ATTORNEY GENERAL
andrew.kobe@atg.in.gov

20a

APPENDIX C

STATE OF INDIANA
COUNTY OF
JENNINGS

)
IN THE JENNINGS
) SS: CIRCUIT COURT
)
)
CAUSE NO.
40C01-1504-PC-001

RAYMOND MARLING,
Petitioner,
-vsSTATE OF INDIANA,
Respondent.

ORDER ON AMENDED PETITION FOR
POST-CONVICTION RELIEF
The Petitioner, Raymond Marling, appears in
person, and by counsel Calvin Brent Martin. The
Respondent, State of Indiana, appears by Chief
Deputy Prosecuting Attorney, Drew Dickerson, for
hearing on November 1, 2017, on Petitioner’s
Amended Petition for Post-Conviction Relief filed
March 6, 2017, and this Court, having taken evidence,
and heard oral argument, now finds as follows:

21a
1.) After a jury trial in October of 2013, Petitioner
was convicted of
Dealing in Methamphetamine, a Class A felony;
Unlawful Possession of A Schedule IV
Controlled Substance, a Class D felony;
Two (2) convictions for Unlawful Possession of a
Legend Drug, each a Class D felony;
Unlawful Possession of Syringe;
Carrying a Handgun With a Prior felony
conviction, a Class C felony.
He received an aggregate sentence of 38 years. He was
represented at trial by Bradley K. Kage, an
experienced attorney with some 34 years of trial
practice experience and a former Prosecutor.
2.) Petitioner filed a direct appeal to the Indiana
Court of Appeals in 40A01-1403-CR-109 via R. Patrick
Magrath, himself experienced appellate counsel.
Among the numerous issues raised on direct appeal
was the legality of an inventory search of Petitioner’s
vehicle, including a locked lockbox found in the trunk
of that vehicle, an issue also addressed in an earlier
Motion to Suppress and at trial.
3.) The Court of Appeals specifically addressed the
inventory search, including the search of the locked
lockbox, and ultimately affirmed Petitioner’s
convictions and sentences on September 30, 2014 in a
Memorandum Decision.
4.) Petitioner now claims both trial and appellate
counsel were ineffective in failing to argue that law
enforcement officer Craig Kipper did not follow
written departmental policy regarding opening locked
containers found in vehicles. The relevant portion of
that policy reads as follows:

22a
North Vernon Police Department, General
Order 49, Impoundment: 49.3.2 Areas to be
Inventoried
Closed and/or Locked Containers-Inventory
all closed or locked containers. If a situation
exists that requires extreme measures (extensive
time, manpower and equipment), and/or
unreasonable potential damage to property, the
officer should avoid opening the container, but
should document why the container was not
opened.
5.) Kipper opened the box with a screwdriver and
found many incriminating items. Also in the trunk
were two (2) rifles, cash and syringes. Marling, when
stopped, was wearing an empty shoulder holster. In
plain view inside the vehicle was a cocked handgun
(safety on).
6.) Ineffective assistance of counsel claims are
evaluated under the test found in Strickland v.
Washington, 466 US. 668, 104 S.Ct.2052, 80 L.Ed 2nd
674 (1984). In this case, both of Petitioner’s claims fail
because had Kage and/or Magrath raised the
argument Petitioner now claims they failed to make,
the outcome of these proceedings would not have been
different.
7.) Faced with someone who already had an
outstanding arrest warrant, was a person of interest
in missing person report, police discovered an armed
individual when they pulled him over to serve the
warrant. These facts justified extreme measures
necessitating opening a lockbox with a screwdriver, a
fact the Court of Appeals also knew when it affirmed
Petitioner’s convictions.

23a
8.) Finding that Kage and Magrath’s failure to
make this specific argument was not ineffective
assistance of counsel, the Court denies the Amended
Petition for Post-Conviction Relief.
SO
ORDERED
NOVEMBER, 2017.

THIS

DAY

6th

OF

/s/ Jon W. Webster
JON W. WEBSTER, Judge
Jennings Circuit Court
cc:
Prosecuting Attorney
C. Brent Martin,
Office of the Public Defender of Indiana
One North Capitol, Suite 800,
Indianapolis IN 46204-2026

24a

APPENDIX D

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule
65(D), this Memorandum Decision
shall not be regarded as precedent
or cited before any court except for
the purpose of establishing the
defense of res judicata, collateral
estoppel, or the law of the case.
ATTORNEYS FOR
APPELLANT

ATTORNEYS FOR
APPELLEE

Stephen T. Owens
Public Defender of
Indiana

Curtis T. Hill, Jr.
Attorney General of
Indiana

C. Brent Martin
Deputy Public Defender
Indianapolis, Indiana

Caryn N. Szyper
Deputy Attorney
General Indianapolis,
Indiana

IN THE
COURT OF APPEALS OF INDIANA
Raymond Marling,
Appellant-Petitioner,
v.
State of Indiana,
Appellee-Respondent.

May 25, 2018
Court of Appeals Case
No. 40A01-1711-PC2620
Appeal from the
Jennings Circuit Court

25a
The Honorable Jon W.
Webster, Judge
Trial Court Cause No.
40C01-1504-PC-1
Brown, Judge.
Raymond Marling appeals the post-conviction court’s
denial of his petition for post-conviction relief. He
raises one issue which we revise and restate as
whether the post-conviction court erred in denying his
petition. We affirm.
Facts and Procedural History
The relevant facts as discussed in Marling’s direct
appeal follow:
In April 2013, police were investigating the
whereabouts of a missing person. Matt Loper was
identified as a person of interest in that
investigation, and North Vernon Police Detective
Ivory Sandefur discovered that Loper and
Marling were friends. Detective Sandefur also
discovered that Marling drove a black Dodge
Avenger and found there was an active arrest
warrant for Marling from Jackson County. The
detective also ascertained that Marling might be
involved in drug activity and that he might be in
possession of a handgun. Detective Sandefur told
local police departments to look for Marling.
On April 25, 2013, Detective Sandefur was
investigating leads in the missing person case,
along with Indianapolis Police Detective Jerry

26a
Gentry. They were driving when they were
passed by a black Dodge Avenger. The detectives
turned around and followed the vehicle; they also
ran the license plate, which returned to Marling
and his wife. The windows of the vehicle were
tinted, but Detective Sandefur confirmed that the
male driver appeared to be Marling. At that
point, Detective Sandefur radioed to a uniformed
police officer to conduct a traffic stop.
North Vernon Police Officer Jeffrey Day
responded and initiated a traffic stop on County
Road 350 North. Marling stopped the vehicle in
the traffic lane, so that only the oncoming traffic
lane was passable. Officer Day ordered Marling
to step out of the car, and Detective Sandefur
handcuffed him. Marling was wearing an empty
shoulder holster under his shirt.
Officer Day looked inside of the vehicle and saw
that there were no passengers. He observed a
handgun between the driver’s seat and the
console; the hammer of the handgun was cocked,
but the safety lock was on. Marling told Officer
Day that he did not have a permit for the
handgun. Officer Day took Marling to jail, where
$686 was inventoried from Marling’s billfold.
Marling asked Officer Day to contact his mother
to ask if she could remove money from a black bag
in the Avenger and remove the vehicle from
impoundment.
North Vernon Police Sergeant Craig Kipper
conducted a search of the Avenger prior to
impoundment in accordance with North Vernon
Police General Order 49, which provides for an

27a
inventory search prior to the impoundment of a
vehicle if a driver was arrested and was driving
the vehicle immediately before arrest.
The
inventory search included a search of the vehicle
in all locations where items of value may be
located, including closed and locked containers.
During his search, Sergeant Kipper first took
possession of the handgun. He then found several
cellphones with chargers, a clear bag with several
syringes, four Clonazepam pills, a schedule IV
drug, and a clear container with white powder
residue. He also found a prescription pill bottle
containing Intuniv, a legend drug, one
Hydroxyine, a legend drug, and one Vyvanse, a
schedule II drug. In the passenger compartment,
Sergeant Kipper found $1,000 secured with a
rubber band inside a laptop bag. In the trunk, the
Sergeant found two rifles, a duffel bag
containing .9mm ammunition, a box of syringes,
thirty-two loose syringes, and a digital scale that
looked like a cell phone. Sergeant Kipper also
discovered a metal combination lockbox in the
trunk; he opened the box with a screwdriver. The
box held a clear baggie containing .51 grams of
cocaine, various capsules containing dimethyl
sulfone, a cutting agent, four baggies with white
residue, and one Clonazepam.
Two days later, Marling called his wife from jail
and told her to take the $1000 and to get
everything out of storage, unless she wanted “up
north” to take it. Tr. p. 447–49. He also told her
that the situation was serious, that she should be
scared, and that she should leave the house. He
told her that if “up north comes down take him

28a
with you to collect the 2gs and show him where
Dennis and Maria are staying and you can collect
the 2gs from them.” Tr. p. 483.
Marling v. State, No. 40A01-1403-CR-109, slip op. at
2–5 (Ind. Ct. App. September 30, 2014), trans. denied.
On May 1, 2013, the State charged Marling with:
Count I, class B felony possession of cocaine with
intent to deliver; Count II, class C felony possession of
cocaine and a firearm; Count III, class C felony
carrying a handgun without a license; Count IV, class
D felony possession of a schedule IV controlled
substance; Count V, class D felony possession of a
schedule II controlled substance; Counts VI and VII,
two counts of class D felony possession of a legend
drug; and Count VIII, class D felony unlawful
possession of a syringe. Id. at 5. Additionally, the
State alleged that Marling was an habitual offender.
Id.
On September 30, 2013, Marling filed a motion to
suppress all the evidence discovered during the
vehicle stop and subsequent inventory search. Id.
The motion asserted that “[o]nce the officer opened the
trunk and found a box, he was not permitted to open
it with a screwdriver” and that “[a] warrant should
have been obtained,” and cited George v. State, 901
N.E.2d 590 (Ind. Ct. App. 2009), trans. denied.
Appellant’s Direct Appeal Appendix Volume 1 at 51.
The trial court held a hearing on the motion on
October 16, 2013. Marling, slip op. at 5. At the
hearing, the court admitted a document titled “North
Vernon Police Department General Order 49
IMPOUNDMENT,” which stated:
49.3.2. Areas to be Inventoried

29a
Inventory the contents of suitcases, boxes and
other containers. Inventory articles in:
*****
* Closed and/or Locked Containers – Inventory all
closed or locked containers. If a situation exists
that requires extreme measures (extensive time,
manpower and equipment), and/or unreasonable
potential damage to property, the officer should
avoid opening the container, but should document
why the container was not opened.
State’s Exhibit 5. The court denied the motion the
next day. Marling, slip op. at 5.
On October 21–24, 2013, the court held a jury trial.
Id.
During trial, Marling’s counsel objected to
admission of evidence found in the locked box in part
based upon its opening with a screwdriver and the
necessity of having a warrant as stated in George v.
State, and the court overruled the objection and
admitted the evidence. At the close of the State’s
evidence, the court dismissed Count V, class D felony
possession of a schedule II controlled substance.
Marling, slip op. at 5. The jury found Marling guilty
of class B felony possession of cocaine with intent to
deliver, class C felony possession of cocaine and a
firearm, class A misdemeanor carrying a handgun
without a license, class D felony possession of a
schedule IV controlled substance, both counts of class
D felony possession of a legend drug, and class D
felony unlawful possession of a syringe. Id. at 5–6. In
a second phase, the jury found Marling guilty of class
C felony possession of a handgun by a felon, the felony
enhancement to class A misdemeanor possession of a
handgun without a license. Id. at 6. In the third and

30a
final phase, Marling was found to be an habitual
offender. Id. The court sentenced Marling to an
aggregate sentence of thirty-eight years. Id.
On direct appeal, Marling argued that the trial court
erred when it admitted evidence obtained as a result
of a pretextual inventory search, the evidence was
insufficient to support his conviction for possession of
cocaine with intent to deliver, and the trial court erred
when it determined that he was an habitual offender,
and this Court affirmed. Id. at 2. Specifically, this
Court held that the decision to impound the vehicle
was reasonable and lawful, that Sergeant Kipper was
required to search the vehicle in all locations where
items of value may be located pursuant to North
Vernon Police Order 49 which “mandates, ‘[i]nventory
all closed or locked containers,’” and that the search
was conducted in accordance with standard police
procedures. Id. at 10 (quoting State’s Exhibit 5). The
Court also concluded that the inventory search was
reasonable under a totality of the circumstances
under Article 1, Section 11 of the Indiana
Constitution. Id. at 9–12.
On April 10, 2015, Marling, pro se, filed a verified
petition for post-conviction relief. On March 6, 2017,
Marling’s counsel filed a Motion for Leave to Amend
Petition for Post-Conviction Relief asserting that he
received ineffective assistance of trial and appellate
counsel. Marling also asserted that “the Officer
permanently damaged the lock box by prying the lid
open with a screw driver” and the State could not
prove that the search was conducted in conformity
with their written regulations because “Officer Kipper
caused unreasonable damage to property, the lock

31a
box, in violation of the written policy.” Appellant’s
Appendix Volume 2 at 32.
That same day, Marling, by counsel, filed a motion for
summary disposition.
An affidavit of Marling’s
appellate counsel attached to the motion for summary
disposition stated: “I did not consider challenging the
admission of the cocaine based on the State’s failure
to follow its own written procedures for conducting an
inventory search. Had I considered it I would have
raised the issue based on the decision in Fair v. State,
627 N.E.2d 427 (Ind. 1993).” Id. at 97. On March 15,
2017, the post-conviction court denied Marling’s
motion for summary disposition. Marling appealed,
and this Court dismissed the appeal without prejudice
and remanded for further proceedings on June 30,
2017.
On November 1, 2017, the post-conviction court held
an evidentiary hearing. The court admitted the record
from the direct appeal as Petitioner’s Exhibit 1.
Marling’s post-conviction counsel asserted that he had
an affidavit that was attached to the motion for
summary disposition from Marling’s appellate counsel
“essentially admitting, this was a good argument, I
should have made it.” Post-Conviction Transcript at
11. Marling’s counsel acknowledged that he did not
have an affidavit from Marling’s trial counsel but
argued “there’s not strategy for not making this
argument.” Id. Marling’s trial and appellate counsel
did not testify at the hearing. On November 6, 2017,
the post-conviction court denied Marling’s petition.
Discussion
Before addressing Marling’s allegations of error, we
note the general standard under which we review a

32a
post-conviction court’s denial of a petition for postconviction relief. The petitioner in a post-conviction
proceeding bears the burden of establishing grounds
for relief by a preponderance of the evidence. Fisher
v. State, 810 N.E.2d 674, 679 (Ind. 2004); Ind. PostConviction Rule 1(5). When appealing from the denial
of post-conviction relief, the petitioner stands in the
position of one appealing from a negative judgment.
Fisher, 810 N.E.2d at 679. On review, we will not
reverse the judgment unless the evidence as a whole
unerringly and unmistakably leads to a conclusion
opposite that reached by the post-conviction court. Id.
“A post-conviction court’s findings and judgment will
be reversed only upon a showing of clear error—that
which leaves us with a definite and firm conviction
that a mistake has been made.” Id. In this review, we
accept findings of fact unless clearly erroneous, but we
accord no deference to conclusions of law. Id. The
post-conviction court is the sole judge of the weight of
the evidence and the credibility of witnesses. Id.
Marling argues that he received ineffective assistance
of both trial and appellate counsel when they failed to
“make an obvious argument in support of the denied
Motion to Suppress and against the subsequent
admission of the cocaine.” Appellant’s Brief at 13. He
acknowledges that the initial stop and the
impoundment of his vehicle were proper, but argues
that his trial and appellate counsel failed to argue
that the State did not follow its written policy and that
the locked box was damaged. He asserts that the
language of the regulations “is mandatory that the
officer shall avoid opening the container if it could
cause potential damage or requires extreme
measures.” Id. at 15.

33a
The State maintains that the policy does not include
the word “shall” as stated by Marling and
contemplates some permissible level of damage that
may occur in certain circumstances when officers
complied with the general mandate that all locked
containers must be opened and inventoried. It argues
that Sergeant Kipper’s ability to pop open the box with
a screwdriver was hardly an extreme measure and
nothing in the record reflects any damage to the box
or suggests that opening a locked box with a
screwdriver would cause unreasonable damage. The
State asserts that the photograph of the box admitted
at trial does not reveal any actual damage to the box
and Marling never complained of any damage. It also
contends that opening the box fulfilled one of the
administrative purposes of the inventory search, the
protection of police from possible danger.
Generally, to prevail on a claim of ineffective
assistance of counsel a petitioner must demonstrate
both that his counsel’s performance was deficient and
that the petitioner was prejudiced by the deficient
performance. French v. State, 778 N.E.2d 816, 824
(Ind. 2002) (citing Strickland v. Washington, 466 U.S.
668, 104 S. Ct. 2052 (1984), reh’g denied). A counsel’s
performance is deficient if it falls below an objective
standard of reasonableness based on prevailing
professional norms. Id. To meet the appropriate test
for prejudice, the petitioner must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.
Id.
A reasonable
probability is a probability sufficient to undermine
confidence in the outcome. Perez v. State, 748 N.E.2d
853, 854 (Ind. 2001). Failure to satisfy either prong

34a
will cause the claim to fail. French, 778 N.E.2d at 824.
Most ineffective assistance of counsel claims can be
resolved by a prejudice inquiry alone. Id.
When considering a claim of ineffective assistance of
counsel, a “strong presumption arises that counsel
rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional
judgment.” Morgan v. State, 755 N.E.2d 1070, 1072
(Ind. 2001). “[C]ounsel’s performance is presumed
effective, and a defendant must offer strong and
convincing evidence to overcome this presumption.”
Williams v. State, 771 N.E.2d 70, 73 (Ind. 2002).
Evidence of isolated poor strategy, inexperience, or
bad tactics will not support a claim of ineffective
assistance of counsel. Clark v. State, 668 N.E.2d 1206,
1211 (Ind. 1996), reh’g denied, cert. denied, 520 U.S.
1171, 117 S. Ct. 1438 (1997). “Reasonable strategy is
not subject to judicial second guesses.” Burr v. State,
492 N.E.2d 306, 309 (Ind. 1986). We “will not lightly
speculate as to what may or may not have been an
advantageous trial strategy as counsel should be
given deference in choosing a trial strategy which, at
the time and under the circumstances, seems best.”
Whitener v. State, 696 N.E.2d 40, 42 (Ind. 1998). In
order to prevail on a claim of ineffective assistance due
to the failure to object, the defendant must show a
reasonable probability that the objection would have
been sustained if made. Passwater v. State, 989
N.E.2d 766, 772 (Ind. 2013) (citing Wrinkles v. State,
749 N.E.2d 1179, 1192 (Ind. 2001), cert. denied, 535
U.S. 1019, 122 S. Ct. 1610 (2002)).
We apply the same standard of review to claims of
ineffective assistance of appellate counsel as we apply
to claims of ineffective assistance of trial counsel.

35a
Williams v. State, 724 N.E.2d 1070, 1078 (Ind. 2000),
reh’g denied, cert. denied, 531 U.S. 1128, 121 S. Ct.
886 (2001). Ineffective assistance of appellate counsel
claims fall into three categories: (1) denial of access to
an appeal; (2) waiver of issues; and (3) failure to
present issues well. Garrett v. State, 992 N.E.2d 710,
724 (Ind. 2013). “To show that counsel was ineffective
for failing to raise an issue on appeal thus resulting in
waiver for collateral review, ‘the defendant must
overcome the strongest presumption of adequate
assistance, and judicial scrutiny is highly
deferential.’” Id. (quoting Ben-Yisrayl v. State, 738
N.E.2d 253, 260–261 (Ind. 2000), reh’g denied, cert.
denied, 534 U.S. 1164, 122 S. Ct. 1178 (2002)). “To
evaluate the performance prong when counsel waived
issues upon appeal, we apply the following test: (1)
whether the unraised issues are significant and
obvious from the face of the record and (2) whether the
unraised issues are ‘clearly stronger’ than the raised
issues.” Id. (quoting Timberlake v. State, 753 N.E.2d
591, 605–606 (Ind. 2001), reh’g denied, cert. denied,
537 U.S. 839, 123 S. Ct. 162 (2002)). “If the analysis
under this test demonstrates deficient performance,
then we evaluate the prejudice prong which requires
an examination of whether ‘the issues which . . .
appellate counsel failed to raise would have been
clearly more likely to result in reversal or an order for
a new trial.’” Id. (quoting Bieghler v. State, 690 N.E.2d
188, 194 (Ind. 1997), reh’g denied, cert. denied, 525
U.S. 1021, 119 S. Ct. 550 (1998)).
We observe that Marling’s trial counsel filed a motion
to suppress asserting that the traffic stop was
improper, that the impoundment of the vehicle and
resulting inventory search violated Article 1, Section

36a
11 of the Indiana Constitution because the vehicle did
not pose any threat or harm to the community or
itself, that “[o]nce the officer opened the trunk and
found a box, he was not permitted to open it with a
screwdriver,” and that “[a] warrant should have been
obtained.”
Appellant’s Direct Appeal Appendix
Volume 1 at 51. During trial, Marling’s trial counsel
also objected to the evidence in the box.
Marling’s appellate counsel raised the issues of
“[w]hether the discovery of a small undivided amount
of cocaine is sufficient to support a conviction for
dealing in cocaine,” “[w]hether a habitual offender
enhancement may be sought for a dealing in cocaine
conviction when the defendant has no prior dealing
convictions,” and “[w]hether evidence obtained as a
result of pretextual inventory search that included
locked containers should have been excluded from
presentation to the jury.” Appellant’s Direct Appeal
Brief at 1. Appellate counsel argued that the search
of the locked box in the trunk was unreasonable under
the Indiana Constitution. Thus, both trial and
appellate counsel challenged the search of the locked
box.
To the extent Marling argues that his trial and
appellate counsel failed to argue that the State did not
follow its written policy because the box was damaged,
we observe that Marling asserts that, “[b]y the State’s
own evidence, the police report of Officer Kipper, he
had to break open the locked box with a screw driver,
causing damage to the property.” Appellant’s Brief at
15 (citing Appellant’s Appendix at 51). However, page
51 of the Appellant’s Appendix, cited by Marling,
merely states: “In the trunk was a silver square
combination lock box. The box was locked. The locked

37a
box was opened with a screw driver. In the locked box
was more syringes and several items that are used for
the ingestion of illegal substances.” Appellant’s
Appendix Volume 2 at 51. We cannot say that this
document alone establishes that the box was
damaged.
Marling does not point elsewhere in the record in
support of the assertion that the box was damaged.
We cannot say that Marling has demonstrated that
his trial or appellate counsel were deficient or that he
was prejudiced.1
Conclusion
For the foregoing reasons, we affirm the postconviction court’s denial of Marling’s petition for postconviction relief.
Affirmed.
Bailey, J., and Crone, J., concur.

1

To the extent Marling cites Fair, we find that case
distinguishable. In Fair, the Indiana Supreme Court held that
a search must be conducted pursuant to standard police
procedures and the procedures must be rationally designed to
meet the objectives that justify the inventory search. Fair, 627
N.E.2d at 435. The Court also held that searches in conformity
with such regulations are reasonable under the Fourth
Amendment and that to defeat a charge of pretext the State
must establish the existence of sufficient regulations and that
the search at issue was conducted in conformity with them. Id.
Given that the State presented its inventory procedure and the
portion of the record cited by Marling does not reveal damage to
the box and he does not point elsewhere in the record for any
damage to the box, we cannot say that the police failed to
perform the search in conformity with their procedures.

38a

APPENDIX E
In the

Indiana Supreme Court
Raymond Ryan Marling,
Appellant(s),

Court of Appeals Case
No. 40A01-1711-PC02620

v.
State Of Indiana,
Appellee(s).

Trial Court Case No.
40C01-1504-PC-1

ORDER
This matter has come before the Indiana Supreme
Court on a petition to transfer jurisdiction, filed
pursuant to Indiana Appellate Rules 56(B) and 57,
following the issuance of a decision by the Court of
Appeals. The Court has reviewed the decision of the
Court of Appeals, and the submitted record on appeal,
all briefs filed in the Court of Appeals, and all
materials filed in connection with the request to
transfer jurisdiction have been made available to the
Court for review. Each participating member has had
the opportunity to voice that Justice’s views on the
case in conference with the other Justices, and each
participating member of the Court has voted on the
petition.
Being duly advised, the Court DENIES the petition
to transfer.

39a
Done at Indianapolis, Indiana, on 10/15/2018.

/s/ Loretta H. Rush
Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

40a

APPENDIX F
IN THE JENNINGS
STATE OF INDIANA )
)
CIRCUIT COURT
) SS:
COUNTY OF
)
CAUSE NO.
JENNINGS
40C01-1305-FA-7
STATE OF INDIANA,
Plaintiff
-vsRAYMOND RYAN
MARLING,
Defendant
ORDER ON MOTION TO SUPPRESS
The State of Indiana appears by its Chief Deputy
Prosecuting Attorney, Drew Dickerson.
The
Defendant, Raymond Ryan Marling, appears in
person, and by counsel, Bradley K. Kage, for hearing
on October 16, 2013 on the Defendant’s Motion to
Suppress filed September 20, 2013, and this Court,
having heard and seen evidence, and having
considered the arguments of counsel, now finds as
follows:
1. On April 25, 2013, Detective Ivory Sandefur of
the North Vernon Police Department and Detective
Gentry of the Indiana State Police were investigating
the report of a missing female. Marling was a person
of interest in her disappearance and they knew he may

41a
be driving a black Dodge Avenger and he may be
armed.1 They were also aware that Marling was a
convicted felon.
2. By chance, while looking for Marling, Sandefur
and Gentry passed a black Dodge Avenger with a male
driver.2 The plate on the Avenger came back to
Marling. Being out of uniform and in an unmarked
vehicle, Sandefur called for a uniformed unit to stop
the vehicle. This was done by Officer Jeff Day from
the North Vernon Police Department. Sandefur and
Gentry stayed behind the vehicle the entire time until
the stop was made by Day on a rural county paved
road.
3. The reason for the stop was because Sandefur
and Gentry had an active felony criminal arrest
warrant from the Jackson Circuit Court (36C01-1112FD-340) for Marling and they were justified in asking
Day to stop the vehicle registered to Marling being
driven by a male.
4. After Day approached the vehicle and secured
Marling, it was determined by Sandefur during a pat
down search that Marling was wearing an empty
shoulder holster. Day then located, in plain view, a 45
automatic handgun in the vehicle with the hammer
cocked, placed between the console and the driver’s
seat.

1

Mr. Marling had allegedly told others he was not going back to
jail.

2

The windows of this vehicle were tinted and none of the officers
could tell for sure if Marling was the driver, but they could tell it
was a male driver.

42a
5. The Avenger, once stopped, was nearly entirely
on the traveled portion of the roadway. No one else
was in the vehicle and Marling was going to jail.
6. The North Vernon Police Department then
conducted an “inventory search” of the vehicle once it
was impounded, where they found, among other
things, the 45 automatic handgun with hollow point
ammunition, a Mosin Nagant 7.62 caliber rifle with
bayonet, a 7.62 Saiga rifle, night vision goggles, 9 mm
ammunition, one thousand dollars ($1,000.00) in cash,
many pills, corner cut baggies, thirty-six (36) syringes
in a box, what appeared to be methamphetamine,
several spoons with residue, a scale, a pipe, a laptop,
four (4) cell phones, some located in the console, some
in the trunk and some in locked containers in the
trunk.
7. Based upon the totality of the evidence and
circumstances, specifically a matching vehicle
description, a male driver, a license plate confirmation
coming back to the Defendant, and an active criminal
warrant for Marling, Officer Day was more than
justified in stopping the vehicle and looking in the
passenger compartment for the missing handgun
which he saw in plain view.
8. The City of North Vernon had a duly
promulgated Impoundment Procedure in effect on
April 25, 2013 which authorized the search and
opening of closed and locked containers within
vehicles. See State’s exhibit 5.
10. The stop being clearly lawful, the Court must
then move to the legality of the inventory search of the
vehicle, the trunk, and the container(s) therein.

43a
11. The Defendant’s argument is that the State
should have secured a warrant to search any container
found in the trunk of the vehicle.
12. The Court disagrees. The vehicle had to be
impounded. It was almost entirely in the road with no
alternate driver. Once impounded, the vehicle and the
contents had to be inventoried and the search and
discovery of the contents of the trunk and the
containers therein was lawful.
13. The Motion to Suppress is denied.
SO ORDERED THIS 17th DAY OF OCTOBER,
2013.
/s/ Jon W. Webster
JON W. WEBSTER, Judge
Jennings Circuit Court

CC:
RJO
Prosecuting Attorney
Bradley K. Kage

44a

APPENDIX G

Pursuant to Ind. Appellate Rule
65(D),
this
Memorandum
Decision shall not be regarded
as precedent or cited before any
court except for the purpose of
establishing the defense of res
judicata, collateral estoppel, or
the law of the case.
ATTORNEY FOR
APPELLANT:

ATTORNEYS FOR
APPELLEE:

R. PATRICK
MAGRATH
Alcorn Goering & Sage,
LLP
Madison, Indiana

GREGORY F.
ZOELLER
Attorney General of
Indiana
JODI KATHRYN
STEIN
Deputy Attorney
General
Indianapolis, Indiana

IN THE
COURT OF APPEALS OF INDIANA
RAYMOND RYAN
MARLING,
Appellant-Defendant,

)
)
)

45a
vs.
STATE OF INDIANA,
Appellee-Plaintiff.

)
)
)
)
)

No. 40A01-1403-CR109

APPEAL FROM THE JENNINGS CIRCUIT
COURT
The Honorable Jon W. Webster, Judge
Cause No. 40C01-1305-FA-7
September 30, 2014
MEMORANDUM DECISION - NOT FOR
PUBLICATION
BAKER, Judge
Raymond Marling appeals his convictions and
thirty-eight-year aggregate sentence for Possession of
Cocaine with Intent to Deliver,1 a class B felony;
Possession of a Schedule IV Controlled Substance,2 a
class D felony; two counts of Possession of a Legend
Drug,3 class D felonies; Unlawful Possession of a
syringe,4 a class D felony; and Possession of a
Handgun by a Felon,5 a class C felony. Marling argues
that the trial court erred when it admitted evidence
obtained as a result of a pretextual inventory search,
and asserts that the evidence was insufficient to

1

Ind. Code § 35-48-4-1(a)(2)(C).

2

I.C. § 35-48-4-7.

3

Indiana Code § 16-42-19-13.

4

I.C. § 16-42-19-18.

5

Indiana Code § 35-47-2-23(c)(2)(B).

46a
support his conviction for possession of cocaine with
intent to deliver. He also maintains that the trial
court erred when it determined that he was an
habitual offender. Finding that the trial court did not
err in admitting the evidence found during the
inventory search, that the evidence is sufficient to
support Marling’s conviction for possession of cocaine
with intent to deliver, and that trial court properly
denied Marling’s motion to dismiss, we affirm the
judgment of the trial court.
FACTS
In April 2013, police were investigating the
whereabouts of a missing person. Matt Loper was
identified as a person of interest in that investigation,
and North Vernon Police Detective Ivory Sandefur
discovered that Loper and Marling were friends.
Detective Sandefur also discovered that Marling drove
a black Dodge Avenger and found there was an active
arrest warrant for Marling from Jackson County. The
detective also ascertained that Marling might be
involved in drug activity and that he might be in
possession of a handgun. Detective Sandefur told local
police departments to look for Marling.
On April 25, 2013, Detective Sandefur was
investigating leads in the missing person case, along
with Indianapolis Police Detective Jerry Gentry. They
were driving when they were passed by a black Dodge
Avenger. The detectives turned around and followed
the vehicle; they also ran the license plate, which
returned to Marling and his wife. The windows of the
vehicle were tinted, but Detective Sandefur confirmed
that the male driver appeared to be Marling. At that

47a
point, Detective Sandefur radioed to a uniformed
police officer to conduct a traffic stop.
North Vernon Police Officer Jeffrey Day responded
and initiated a traffic stop on County Road 350 North.
Marling stopped the vehicle in the traffic lane, so that
only the oncoming traffic lane was passable. Officer
Day ordered Marling to step out of the car, and
Detective Sandefur handcuffed him. Marling was
wearing an empty shoulder holster under his shirt.
Officer Day looked inside of the vehicle and saw that
there were no passengers. He observed a handgun
between the driver’s seat and the console; the hammer
of the handgun was cocked, but the safety lock was on.
Marling told Officer Day that he did not have a permit
for the handgun. Officer Day took Marling to jail,
where $686 was inventoried from Marling’s billfold.
Marling asked Officer Day to contact his mother to ask
if she could remove money from a black bag in the
Avenger and remove the vehicle from impoundment.
North Vernon Police Sergeant Craig Kipper
conducted a search of the Avenger prior to
impoundment in accordance with North Vernon Police
General Order 49, which provides for an inventory
search prior to the impoundment of a vehicle if a driver
was arrested and was driving the vehicle immediately
before arrest. The inventory search included a search
of the vehicle in all locations where items of value may
be located, including closed and locked containers.
During his search, Sergeant Kipper first took
possession of the handgun. He then found several
cellphones with chargers, a clear bag with several
syringes, four Clonazepam pills, a schedule IV drug,
and a clear container with white powder residue. He

48a
also found a prescription pill bottle containing Intuniv,
a legend drug, one Hydroxyine, a legend drug, and one
Vyvanse, a schedule II drug. In the passenger
compartment, Sergeant Kipper found $1,000 secured
with a rubber band inside a laptop bag. In the trunk,
the Sergeant found two rifles, a duffel bag
containing .9mm ammunition, a box of syringes,
thirty-two loose syringes, and a digital scale that
looked like a cell phone. Sergeant Kipper also
discovered a metal combination lockbox in the trunk;
he opened the box with a screwdriver. The box held a
clear baggie containing .51 grams of cocaine, various
capsules containing dimethyl sulfone, a cutting agent,
four baggies with white residue, and one Clonazepam.
Two days later, Marling called his wife from jail and
told her to take the $1000 and to get everything out of
storage, unless she wanted “up north” to take it.
Tr. p. 447–49. He also told her that the situation was
serious, that she should be scared, and that she should
leave the house. He told her that “if up north comes
down take him with you to collect the 2gs and show
him where Dennis and Maria are staying and you can
collect the 2gs from them.” Tr. p. 483.
On May 1, 2013, the State charged Marling with
Count I, class B felony possession of cocaine with
intent to deliver; Count II, class C felony possession of
cocaine and a firearm; Count III, class C felony
carrying a handgun without a license; Count IV, class
D felony possession of a schedule IV controlled
substance; Count V, class D felony possession of a
schedule II controlled substance; Counts VI and VII,
two counts of class D felony possession of a legend
drug; and Count VIII, class D felony unlawful
possession of a syringe. Additionally, the State alleged

49a
that Marling was an habitual offender. On September
30, 2013, Marling filed a motion to suppress all the
evidence discovered during the vehicle stop and
subsequent inventory search. The trial court held a
hearing on the motion on October 16, 2013. It denied
the motion the next day.
Marling’s jury trial took place on October 21–24,
2013. At the close of the State’s evidence, the trial
court dismissed Count V, class D felony possession on
a schedule II controlled substance. The jury found
Marling guilty of class B felony possession of cocaine
with intent to deliver, class C felony possession of
cocaine and a firearm, class A misdemeanor carrying
a handgun without a license, class D felony possession
of a schedule IV controlled substance, both counts of
class D felony possession of a legend drug, and class D
felony unlawful possession of a syringe. In a second
phase, the jury found Marling guilty of class C felony
possession of a handgun by a felon, the felony
enhancement to class A misdemeanor possession of a
handgun without a license. In the third and final
phase, Marling was found to be an habitual offender.
The trial court held a sentencing hearing on
February 20, 2014. It merged the handgun convictions
and imposed the following sentence: thirteen years for
class B felony possession of cocaine with intent to
deliver with a twenty year enhancement for the
habitual offender finding, twenty-one months for each
count of class D felony possession of a legend drug,
twenty-one months for class D felony possession of a
schedule IV controlled substance, twenty-one months
for class D felony unlawful possession of a syringe, and
five years for the class C felony possession of a
handgun by a felon. The five-year sentence for

50a
possession of a handgun by a felon was ordered to run
consecutively to the thirty-three year sentence for
possession of cocaine with intent to deliver, and the
twenty-one month sentences for each count of
possession of a legend drug, possession of a schedule
IV controlled substance, and unlawful possession of a
syringe were ordered to run concurrently with each
other and with the other sentences.
Marling’s
aggregate sentence was thirty-eight years.
DISCUSSION AND DECISION
I. Admission of Evidence
Marling argues that the trial court erred when it
admitted evidence obtained as a result of the
inventory search. He contends that the trial court
should have excluded the evidence because the
impoundment was improper and the inventory
performed by Sergeant Kipper exceeded the scope of a
proper inventory search.
A trial court has broad discretion in ruling on the
admissibility of evidence, and, on review, we will
disturb its ruling only on a showing of an abuse of
discretion. Sparkman v. State, 722 N.E.2d 1259, 1262
(Ind. Ct. App. 2000). When reviewing a decision under
an abuse of discretion standard, we will affirm if there
is any evidence supporting the decision. Id. A claim
of error in the admission or exclusion of evidence will
not prevail on appeal unless a substantial right of the
party is affected. Ind. Evidence Rule 103(a). In
determining whether error in the introduction of
evidence affected a defendant’s substantial rights, we
assess the probable impact of the evidence on the jury.
Sparkman, 722 N.E.2d at 1262.

51a
The Fourth Amendment to the United States
Constitution protects persons from unreasonable
search and seizure and this protection has been
extended to the states through the Fourteenth
Amendment to the Unites States Constitution. Mapp
v. Ohio, 367 U.S. 643, 650 (1961). The paramount
concern of the Fourth Amendment is the
reasonableness of the State’s intrusion into the
privacy of its citizens. Adams v. State, 762 N.E.2d 737,
740 (Ind. 2002). The reasonableness of a search is
determined by balancing the degree to which it
intrudes upon an individual’s privacy with the degree
to which it is needed for the promotion of legitimate
governmental interests. Lockett v. State, 747 N.E.2d
539, 542 (Ind. 2001).
Put another way, the
fundamental purpose of the Fourth Amendment “is to
protect the legitimate expectations of privacy that
citizens possess in their persons, their homes, and
their belongings.” Taylor v. State, 842 N.E.2d 327, 330
(Ind. 2006). We note that seizures conducted outside
the judicial process, without prior approval by a judge
or a magistrate, are per se unreasonable under the
Fourth Amendment, subject only to a few specifically
established and well-delineated exceptions. Warner v.
State, 773 N.E.2d 239, 245 (Ind. 2002).
A valid inventory search is a well-recognized
exception to the warrant requirement. Taylor, 842
N.E.2d at 330. The underlying rationale for the
inventory exception is three-fold: (1) protection of
private property in police custody; (2) protection of
police against claims of lost or stolen property; and
(3) protection of police from possible danger. Gibson v.
State, 733 N.E.2d 945, 956 (Ind. Ct. App. 2000).

52a
When analyzing the propriety of an inventory
search, the threshold question is whether the
impoundment itself was proper. Taylor, 842 N.E.2d at
331 (citing Woodford v. State, 752 N.E.2d 1278, 1281
(Ind. 2001). An impoundment is warranted when it is
part of routine administrative caretaking functions of
the police or when it is authorized by statute. Id. To
prove a valid inventory search under the community
caretaking function, the State must demonstrate the
following: (1) the belief that the vehicle posed some
threat or harm to the community or was itself
imperiled was consistent with objective standards of
sound policing, and (2) the decision to combat that
threat by impoundment was in keeping with
established departmental routine or regulation. Id.
The question is not whether there was an absolute
need to dispose of the vehicle, but whether the decision
to do so was reasonable in light of the applicable
standard. Fair v. State, 627 N.E.2d 427, 433 (Ind.
1993).
Marling argues that the impoundment of his vehicle
was not warranted under the community caretaking
function. He maintains that, as his vehicle was
“partially pulled off the roadway,” other vehicles were
able to pass. Appellant’s Br. p. 8. However, evidence
at trial established that the vehicle constituted a
traffic hazard. Sergeant Kipper testified that the
vehicle “was on the roadway so it was a traffic hazard.”
Tr. p. 254. Moreover, the videotape of the traffic stop
shows that the vehicle was almost entirely blocking
one lane of a two-lane road. Ex. 2. The fact that other
drivers could pass by using part of the oncoming traffic
lane does not mean that impoundment was
unwarranted; the vehicle would have been left

53a
unattended in a public thoroughfare after Marling’s
arrest, therefore the decision to impound was
reasonable and lawful. See Stephens v. State, 735
N.E.2d 278 (Ind. Ct. App. 2000) (holding that an
impoundment was reasonable and lawful when a van
would have been left unattended in a public
thoroughfare following Stephens’s arrest).
Having determined that the vehicle was reasonably
impounded, we next examine the reasonableness of
the search. Marling argues that the search of the
duffel bag and lockbox exceeded the scope of a proper
inventory search. To pass constitutional muster, an
inventory search must be conducted pursuant to
standard police procedures, as evidenced by the
circumstances surrounding the search. Stephens, 735
N.E.2d at 282. Mere testimony of an officer is
insufficient. Id.
Here, pursuant to North Vernon Police Order 49,
Sergeant Kipper was required to search the vehicle in
all locations where items of value may be located;
Order 49 mandates, “[i]nventory all closed or locked
containers.”
Ex. 5.
Therefore the search was
conducted in accordance with standard police
procedures.
Marling also argues that the search was a violation
of his rights under Article I, Section 11 of the Indiana
Constitution. Article I, Section 11 provides “[t]he right
of the people to be secure in their persons, houses,
papers, and effects, against unreasonable search or
seizure, shall not be violated . . . .” Our Supreme Court
has stated that vehicles are among the “effects”
protected by Article I, Section 11. Brown v. State, 653
N.E.2d 77, 79 (Ind. 1995). Under Article I, Section 11,

54a
the validity of a search turns on an evaluation of the
reasonableness of the officers’ conduct under a totality
of the circumstances. Litchfield v. State, 824 N.E.2d
356, 361 (Ind. 2005). In determining whether the
police behavior was reasonable under Section 11, we
consider each case on its own facts and construe the
constitutional provision liberally so as to guarantee
the rights of people against unreasonable searches and
seizures.
Brown, 653 N.E.2d at 79.
The
reasonableness of a search turns on a balance of
“1) the degree of concern, suspicion, or knowledge that
a violation has occurred, 2) the degree of intrusion the
method of the search or seizure imposes on the
citizen’s ordinary activities, and 3) the extent of law
enforcement needs.” Litchfield, 824 N.E.2d at 361.
Here, Marling argues that the degree of intrusion in
opening the duffel bag and lockbox was high. He
maintains that, because “[he] was pulled over as a
result of a warrant and no violations of law had
actually been observed by the arresting law
enforcement,” the degree of concern or suspicion was
“low or nonexistent.” Appellant’s Br. p. 9.
However, Marling is incorrect to analyze the degree
of concern or suspicion at the time of the stop. Instead,
we must focus on the time at which Sergeant Kipper
opened the duffel bag and the lockbox, which were in
the trunk. See Moore v. State, 637 N.E.2d 816, 820
(Ind. Ct. App. 1004) (holding that the fact that an
officer’s suspicion arose during the course of an
inventory search did not render the search pretexual);
see also Fair, 627 N.E.2d at 436 n.7 (“so that as long
as the impoundment is pursuant to the community
caretaking function and is not a mere subterfuge for
investigation, the coexistence of investigatory and

55a
caretaking motives is permissible”). At the time that
Sergeant Kipper searched the trunk, he had already
discovered a loaded weapon, several cell phones with
chargers, a clear bag containing syringes, four
Clonazepam pills, a pill bottle containing Intuniv,
Hydroxyzine, and Vyvanse, and a clear container with
white powder residue. Tr. p. 257–61, 275, 278–80,
361–65, 367. In addition, he had discovered $1,000
inside a laptop bag in the passenger compartment as
well as two rifles in the trunk.
Tr. 273, 275.
Therefore, Sergeant Kipper 1) had reason to believe
more items of value might be located inside the duffel
bag and lockbox, and that he needed to open them to
ensure that he protected private property in police
custody, and 2) had a high level of suspicion that
Marling was involved in illegal drug activity.
Therefore, we find that the inventory search was
reasonable under a totality of the circumstances.
II. Sufficiency of the Evidence
Marling next argues that his conviction for
possession of cocaine with the intent to deliver was not
supported by sufficient evidence.
When reviewing challenges to the sufficiency of the
evidence, we do not reweigh the evidence or judge the
credibility of the witnesses. Bond v. State, 925 N.E.2d
773, 781 (Ind. Ct. App. 2010). Rather, we consider
only the evidence most favorable to the verdict and the
reasonable inferences drawn therefrom, and we will
affirm if the evidence and those inferences constitute
substantial evidence of probative value to support the
verdict. Id. Reversal is appropriate only when a
reasonable trier of fact would not be able to form

56a
inferences as to each material element of the offense.
Id.
In order to prove that Marling had possessed
cocaine with the intent to deliver, the State was
required to prove that 1) Marling possessed the
cocaine 2) with the intent to deliver. Ind. Code § 3548-4-1. Marling does not argue that he did not possess
the cocaine. Rather, he argues that the amount he
possessed, .51 grams, was insufficient to show that he
had the intent to deliver.
As intent is a mental state, absent an admission, the
trier of fact must resort to reasonable inferences based
upon
an
examination
of
the
surrounding
circumstances to determine whether, from the
person’s conduct and the natural consequences
thereof, a showing or inference of intent to commit
that conduct exists. Stokes v. State, 801 N.E.2d 1263,
1272 (Ind. Ct. App. 2004). Marling concedes that
intent to deliver may be proved by circumstantial
evidence. Id. But he maintains that there was not
enough circumstantial evidence to allow a reasonable
trier of fact to infer that he intended to deliver the
cocaine.
The State presented evidence that the following
indicators of intent to deliver were present:
1) a digital scale masquerading as a cell phone,
2) multiple cell phones for single use and disposal,
3) a large amount of cash, 4) firearms, 5) a large
amount of a cocaine cutting agent, and 6) empty
baggies. Tr. p. 292–98, 305. This Court has held that
possession of a large quantity of drugs, money, plastic
bags, and other paraphernalia is circumstantial
evidence of intent to deliver. Wilson v. State, 754

57a
N.E.2d 950 (Ind. Ct. App. 2001). While Marling is
correct that a large quantity of drugs can constitute
circumstantial evidence, it is clearly not the only
circumstantial evidence that can support a conviction.
When considering the evidence presented, we find it
sufficient to support Marling’s conviction for
possession of cocaine with intent to deliver.
III. Habitual Offender Finding
Marling also maintains that the trial court could not
find him to be an habitual offender under Indiana
Code section 35-50-2-8(b)(3). A question of statutory
interpretation is a matter of law to be determined de
novo. Maynard v. State, 859 N.E.2d 1272, 1274
(Ind. 2007).
Marling argues that the trial court should not have
found him to be an habitual offender because, at the
time he was sentenced, Indiana Code section 35-50-28(b)(3)6 did not allow for a habitual offender
enhancement when all of the following applied:
(A) The offense is an offense under IC 16-42-19 or
IC 35-48-4.
(B) The offense is not listed in section 2(b)(4) of this
chapter
(C) The total number of unrelated convictions that
the person has for
(i) dealing in a legend (drug under IC 16-42-1927;
(ii) dealing in or cocaine or a narcotic drug (IC
35-48-4-1);
6

Indiana Code section 35-50-2-8 was amended effective July 1,
2014.

58a
(iii) dealing in a schedule I, II, III controlled
substance (IC 35-48-4-2);
(iv) dealing in a schedule IV controlled
substance (IC 35-48-4-3); and
(v) dealing in a schedule V controlled substance
(IC 35-48-4-4);
does not exceed one (1)
Marling notes that because his offense falls under
Indiana Code chapter 35-48-4 and he has no prior
dealing convictions under Indiana Code section 35-502-8(b)(3)(C), the only question is to determine whether
his offense is listed in Indiana Code section 35-50-22(b)(4).
As previously stated, the felony offense at issue here
is possession of cocaine with intent to deliver under
Indiana Code section 35-48-4-1. One of the offenses
listed in Indiana Code section 35-50-2-2(b)(4) is
“dealing in cocaine or a narcotic drug . . . if the court
finds that the person possessed a firearm at the time
of the offense. Ind. Code § 35-50-2-2(b)(4)(O). Here, at
the time of Marling’s motion to dismiss, the jury had
already found that he possessed a firearm at the time
he possessed the cocaine with the intent to deliver.
Appellant’s App. p. 81–82; Tr. p. 553–54. The trial
court made the same finding when it denied the
motion to dismiss. Appellant’s App. p. 82. Therefore,
subsection (b)(3)(B) did not apply, and it was not error
for the habitual offender enhancement to be attached
to Count I, possession of cocaine with intent to deliver.
The trial court did not err in denying Marling’s motion
to dismiss.
The judgment of the trial court is affirmed.
KIRSCH, J., and ROBB, J., concur.

59a

APPENDIX H

Supreme Court of Indiana
Raymond Ryan Marling
v.
State of Indiana
Court of Appeals Case No. 40A01-1403-CR-109
Trial Court Case No. 40C01-1305-FA-7
January 06, 2015

Opinion
Transfer denied. All Justices concur.

60a

APPENDIX I

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

August 17, 2020

Before
FRANK H. EASTERBROOK, Circuit Judge
KENNETH F. RIPPLE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-3077
RAYMOND MARLING,
Petitioner-Appellee
v.
FRANK LITTLEJOHN,
Deputy Warden, Wabash
Valley Correctional
Facility,
Respondent-Appellant.

Appeal from the United
States District Court for
the Southern District of
Indiana, Terre Haute
Division.
No. 2:19-cv-00002-JRSDLP
James R. Sweeney II,
Judge.

61a
Order
Petitioner-Appellee filed a petition for rehearing
and rehearing en banc on July 31, 2020. No judge in
regular active service has requested a vote on the
petition for rehearing en banc, and all of the judges on
the panel have voted to deny rehearing. The petition
for rehearing is therefore DENIED.

62a

APPENDIX J
NORTH VERNON POLICE DEPARTMENT
General Order 49
IMPOUNDMENT
Issuing Authority:
Annual Review Date:

Public Safety Board
City of North Vernon
May

Purpose
Impoundment of motor vehicles is a necessary part
of serving the residents of North Vernon. Such
vehicles may be abandoned, lost, stolen, or
recovered. It is our responsibility to take custody of
vehicles as necessary and to arrange proper storage
and security. The North Vernon Police Department
must keep timely and accurate records on all
custody tows and make dispositions promptly.
We help with other vehicle tows at request of
victims of crime or traffic problems, such as traffic
accidents. These noncustody tow requests must be
handled in a fair and equitable manner for victims
and the businesses supplying such services.
Policy
The North Vernon Police Department makes
custody tows as necessary, maintains security of
property, and promptly makes proper disposition.
The department assists the public with noncustody
tow requests in an equitable manner, following a
wrecker rotation list.

63a
Procedures
49.1 Custody Tows
Use towing companies specified on the custody
rotation list and complete a Towing/Inventory
Report for each custody tow. Handle towing and
impounding motor vehicles as follows:
49.1.1 Driver Arrested with Tow
When you make an arrest and a motor vehicle
remains unattended, impound and tow the motor
vehicle under the following conditions:
* Driver Arrested - Arrestee was driving vehicle
immediately before arrest.
* Occupant Arrested - Arrestee was in the vehicle,
stopped or parked, immediately before arrest and
the owner is not available or known.
* Arrestee States Responsibility - Arrestee was in
immediate vicinity of vehicle just before arrest,
and states responsibility for the vehicle.
* Vehicle Condition - Condition of the vehicle will
not permit operation without violating City
ordinances or Indiana Code.
* Vehicle Location - If a vehicle is in an area that
poses a threat to other citizens and/or if the
vehicle will be left for such a length of time that
it could be vandalized or stolen, remove to a
secured location.
49.1.2 Driver Arrested without Tow
Officers may choose to not tow vehicles after
arresting a person under the following
circumstances:

64a
* Vehicle at Residence - When arrestee’s vehicle is
parked at the owner’s residence.
However,
remove the ignition key and lock the vehicle (if it
can be locked).
* Vehicle in Custody of Owner - When arrestee does
not own the vehicle, and the owner is present and
able to take custody. The vehicle may be released
to custody of the owner.
* Vehicle in Custody of Other Proper Person - When
arrestee is owner of the vehicle, and requests to
leave vehicle in custody of another person. If that
person is present and able to take custody, the
officer may then release the vehicle to custody of
the designated person.
* Vehicle in Private Parking Lot - The officer may
choose not to tow if the vehicle is on a private
parking lot and does not pose a danger to others
or itself, and with the consent of the property
owner and/or designee.
49.1.3 Stolen Motor Vehicle
Take the following steps when you find a vehicle
previously reported stolen or taken without owner’s
consent:
* Investigation of Incident - Make a preliminary
investigation, trying to identify the suspect. This
includes processing the vehicle and scene for
physical evidence and if you have reason to
believe the suspect will probably return,
surveillance of the vehicle.
* Disposition of Vehicle - If possible, avoid towing
or impounding a vehicle. If a vehicle can be
properly released in a reasonable time to the

65a
owner or a person named by the owner, do not tow
it. If you have arrested a suspect, however, the
vehicle may become physical evidence.
49.1.4

Abandoned Motor Vehicle

You are authorized to remove and impound vehicles
abandoned on the streets or other public places
under the following circumstances:
* Bridges, Viaducts, Etc. - When a person leaves a
vehicle unattended on any bridge, viaduct, or
causeway or in any tunnel and such vehicle is an
obstruction to traffic.
* Traffic Obstruction - When a person leaves a
vehicle unattended upon a street and is an
obstruction to the normal movement of traffic or
obstructs the use of any trafficway or alleyway
adjoining said street.
* Unlawful Parked - When a vehicle is parked in a
prohibited area as designated by signs or other
official markings.
* Invalid License Plates - When a vehicle is parked
upon a street without having valid license plates
properly displayed thereon.
* Overtime Parking - When a vehicle is parked
upon any property owned, maintained or
operated by the City for parking of motor vehicles
and a person leaves the vehicle parked longer
time than lawfully permitted.
* City Property - When a person leaves a motor
vehicle unattended on any property owned or
controlled by the City that is not designated for
parking of motor vehicles.

66a
* Abandoned Vehicle - When a vehicle meets the
Indiana Abandoned Vehicle Requirements. The
vehicle shall be removed pending the state law
requirements.
49.1.5 Driver Hospitalization
Impound and tow a vehicle when persons are
hospitalized and unable to provide for custody or
removal of their disabled vehicle from a street or
highway.
49.1.6 Evidence of a Crime
Impound and tow a vehicle known or believed used
in committing a crime and has evidentiary value.
49.1.7 Other Circumstances for Custody Tows
Impound and tow a vehicle when state or federal
laws call for the vehicle to be seized and impounded.
Such cases include:
* Controlled Substances - Vehicles transporting
controlled substances unlawfully;
* Untaxed Commodities - Vehicles transporting
untaxed liquor or cigarettes;
* Explosive Devices - Vehicles
unregistered explosive devices;

transporting

* Vehicle Identification Numbers - Vehicles bearing
an altered or defaced VIN, or where someone has
removed the VIN.
* Improper Registration - False registration,
improper transfer, expired registration, violation
of residency requirements, etc.
49.1.8 Stolen Checks
When you impound a motor vehicle, promptly check
attached state registration plates, any state license

67a
plates found inside the vehicle, and vehicle
identification number through the Indiana Data
and Communications System (IDACS) and NCIC to
determine if someone has reported it stolen.
49.2

Release of Impounded Vehicles

49 2.1 Ownership of Vehicle
The owner must come to the wrecker service in
person and establish proof of ownership by a title or
bill of sale, before the vehicle can be released. If the
legal owner is unavailable, the designee must report
to the North Vernon Police Department and an
officer shall determine if this person has standing to
obtain the vehicle.
All vehicles must be properly registered and insured
before they can be released from the wrecker
service. Any exceptions must be approved by an
officer of the North Vernon Police Department.
49.3 Inventory of impounded Motor Vehicles
When you impound a vehicle from an arrest scene
or other location, make an inventory of the contents
and of any obvious damage to it. Use the police
department Impounded Vehicle Inventory Report as
well as the State Impounded Vehicle Report
(S.F. 4166). (See attachments)
Note: Use the word inventory in narrative of all
reports.
49.3.1 Time and Location of Inventory
Inventory at the scene when it can be done safely.
If the vehicle location is hazardous you may conduct
the inventory immediately following the tow at the
custody storage site. Once the initial inventory has

68a
been completed any return inspection will require a
search warrant.
49.3.2 Areas to be Inventoried
Inventory the contents of suitcases, boxes and other
containers. Inventory articles in:
* Trunk and Cargo Areas - Inventory trunk and
cargo areas.
* Passenger Areas - Inventory passenger areas,
including glove compartments and consoles.
* Engine Compartment - Inventory under the hood
of the vehicle to insure that obvious motor parts
are on the vehicle.
* Wheels - Do not remove hubcaps and wheel covers
for inventory purposes unless directed by a
supervisor.
* Closed and/or Locked Containers - Inventory all
closed or locked containers. If a situation exists
that requires extreme measures (extensive time,
manpower and equipment), and/or unreasonable
potential damage to property, the officer should
avoid opening the container, but should document
why the container was not opened.
* Attached Trailer or Vehicle - Inventory all trailers
or vehicles that are attached to the primary
vehicle.
49.3.3 Articles of Value
When you find articles with an apparent value of
fifty dollars ($50) or more during the inventory, list
them separately on the Inventory Report.

69a
* Articles of Concern to Arrestee - List separately
and include any article specifically mentioned by
the arrestee.
49.3.4 Witnesses to Inventory
You should conduct inventories in the presence of a
witness. This would normally be the vehicle owner
or operator (who should be present when possible),
or another officer or city employee. Use the tow
truck driver as a witness if no one else is available.
49.3.5 Property Removed from Vehicle
When discovered during an inventory, seize and
remove the following articles from a vehicle before
towing:
* Articles for Safekeeping - Do not leave small
articles particularly susceptible to loss or theft in
the vehicle. Bring those articles in for property
storage and release to the owner. Include these
items and others as necessary:
1. Currency
2. Jewelry
3. Credit Cards
* Unlawful Articles - Seize articles unlawful to
possess and bring them in for property storage as
evidence. Write an investigative report and seek
criminal charges when proper. Include these
items and others as necessary:
1. Concealed Weapons
2. Stolen Property
3. Contraband (controlled substances, illegal
firearms untaxed liquor or cigarettes, etc)
4. Alcoholic beverages in possession of minors

70a
49.3.6 Vehicle Damage
If you see damage to the vehicle or contents during
the inventory, make a record of the damage on the
Towing Report.
49.4 Noncustody Tows
Noncustody tows are requests by citizens for aid to
remove their vehicles. Tow service operators are
responsible for removal of debris from the streets at
the scene as directed by the officer in charge. Notify
proper agencies to dean up large spills of solid
materials, liquids calling for special equipment, and
hazardous materials.
49.4.1 Noncustody Towing Procedures
Contact the tow company that a person chooses for
help.
* Person has no Preference - If persons do not
request a specific tow company, give them the
next name from the current rotation list.
* Do Not Recommend Tow Services - Do not
recommend a tow company.
49.4.2 Requesting Noncustody Wreckers
When requesting a noncustody tow, tell
communications approximate size and condition of
the vehicle and other details as necessary.
49.4.3 Business with Tow Company
Owners or persons in charge of vehicles may direct
the tow truck operator to tow their vehicle to any
location including the tow company’s storage
facility.
* Payment of Tow Services - Arrangements for
payment of tow and storage charges is strictly a

71a
matter of civil process between the owner or
person in control of the towed vehicle and the tow
company.
* Safe Movement of Traffic - Do not intervene
except to ensure prompt removal of a vehicle
obstructing and blocking traffic.
49.5

Tow Records and Notices

49.5.1 Temporary Towed Vehicle File
Forward finished Towing Reports to the office for
the towed vehicle file. Keep the original Towing
Report in the temporary towed vehicle file until the
department releases the vehicle.
49.5.2 Permanent File
Impound Inventory sheets shall be maintained as a
permanent record within the department.
References
Commission on Accreditation for Law
Enforcement
CALEA sets out the following mandatory standards
for law enforcement agencies (4th ed.) with l to 24
employees.
61.4.3
Authorization
Policy promulgated and approved by the Common
Council for the City of North Vernon, September 24,
2007.
Policy amended and approved by the Common
Council for the City of North Vernon, May 23, 2011.

72a

73a

APPENDIX K
State’s Ex. #5
***

***

74a

APPENDIX L

STATE OF INDIANA
COUNTY OF
JENNINGS, SS:

IN THE JENNINGS
CIRCUIT COURT
CAUSE NO. 40C01-1305FA-007

STATE OF INDIANA,
Plaintiff,
-vsRAYMOND RYAN
MARLING,
Defendant.
MOTION TO SUPPRESS
Comes now the Defendant, Raymond Ryan Marling,
by counsel, Bradley Kage, and respectfully requests
that all evidence seized in this matter on April 25,
2013 be suppressed.
In support thereon, the Defendant will show:
1.) The traffic stop in this matter was improper as
the officer did not have specific and articulable
facts supporting it.
2.) The impound of the vehicle and the resulting
inventory search violated Article I, Section 11 of
the Indiana Constitution in that the vehicle did
not pose any threat or harm to the community

75a
or itself and the decision to combat that threat
was not in keeping with established North
Vernon Police Department policy. Further,
under the “Fruit of the Poisonous Tree”
doctrine, the impound and the inventory search
flowed from the illegal traffic stop.
3.) Once the officer opened the trunk and found a
box, he was not permitted to open it with a
screwdriver. A warrant should have been
obtained. See George v. State, (Ind. App. 2009),
901 N.E. 2d 590, transfer denied 915 NE 2d 990.
WHEREFORE, the Defendant respectfully requests
that the evidence above be suppressed for the reasons
set out above.
Respectfully submitted,
/s/ Bradley Kage
Bradley Kage,
Attorney for Defendant

76a
CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing
instrument was served upon Drew Dickerson, Deputy
Prosecuting Attorney, P.O. Box 392, Vernon, Indiana
47282 on this 20th day of September, 2013, by personal
service.
/s/ Bradley Kage
Bradley Kage,
Attorney for Defendant
Bradley Kage
Attorney at Law
814 South State Street
Post Office Box 328
North Vernon, Indiana 47265
(812) 346-6566
Attorney #5539-40

77a

APPENDIX M
STATE OF INDIANA
COUNTY OF
JENNINGS,
STATE OF INDIANA,

)
) SS:
)
)

IN THE
JENNINGS
CIRCUIT COURT
CAUSE NO.
40C01-1405-FA007

Plaintiff,
-VSRAYMOND RYAN
MARLING,
Defendant.
TRANSCRIPT OF PROCEEDINGS
IN THE ABOVE-CAPTIONED CAUSE
BEFORE THE HONORABLE
JON W. WEBSTER
Hearing on Motion to Suppress
October 16, 2013

LINDA D. BUCHANAN
OFFICIAL COURT REPORTER
VOLUME II OF V

78a
Page 1
The Court:
We are before the court this morning for a motion
to suppress hearing in the matter of The State
versus Raymond Ryan Marling. Mr. Marling is
here with his attorney Bradley Kage. The State by
its Chief Deputy Prosecuting Attorney Drew
Dickerson.
I believe, Mr. Kage, this was a
warrantless search.
Counsel Bradley Kage:
That’s right, Your Honor.
The Court:
This shifts the burden to you, Mr. Dickerson. Call
your first witness.
Counsel Bradley Kage:
Judge, before we start, I just have two things
briefly. Number one, there’s a typographical error
in my Motion to Suppress. If you look at paragraph
number two, line three, see where it says the
decision to combat that threat, I said was in
keeping with established policy. It should be was
not. There should be a not after the was.
The Court:
Very well.
Counsel Bradley Kage:
And then we are also moving for a separation of
witnesses, Your Honor.

79a
Page 2
Counsel Drew Dickerson:
I ask to have Detective Day assist me and I was
going to call Ivory Sandefur as my first witness.
The Court:
Okay. Officer Sandefur, come forward. Do you
have other witnesses, Mr. Kage?
Counsel Bradley Kage:
I will not have any witnesses, no.
The Court:
Have a seat. Raise your right hand. Do you swear
or affirm under the pains and penalties of perjury
that the testimony you shall give will be the truth
and the whole truth? If so, say I do.
Ivory Sandefur:
I do.
The Court:
Have a seat. Mr. Kage. Mr. Dickerson.
DIRECT EXAMINATION OF IVORY SANDEFUR
BY COUNSEL DREW DICKERSON
Counsel Drew Dickerson:
Detective, would you state for the record your name
and occupation please?
Detective Ivory John Sandefur:
My name is Ivory John Sandefur. I’m a detective
with the North Vernon Police Department.
Page 3
Q: Okay. Was that your position on April twenty-fifth
of this year?

80a
A: Yes.
Q: Okay. Going to that date, were you working a
missing person’s case involving somebody named
Sara Maggard.
A: Yes.
Q: Alright. And, uh, in the course of that investigation,
did you identify anybody that was what you would
classify as a person of interest?
A: Yes.
Q: Who was that?
A: Uh, to start, we had Matthew Loper who was, uh,
the person that Sara Maggard had been seen
leaving the city park with.
Q: Okay.
A: Now...
Q: Well, let me just stop you there. Uh, in your
investigation, would it be fair to say that you were
trying to locate Matt Loper?
A: Yes.
Q: Alright. And in doing that, uh, did you or other
officers, uh, investigate who his associates were?
Who he hung around with?
A: Yes.
Page 4
Q: Okay. Uh, did the name, uh, Raymond Ryan
Marling come up in that investigation as somebody
that hung out with Matt Loper?
A: Yes.

81a
Q: Okay. And, but, for the record, what other
detectives and agencies were helping you on this,
uh, missing person’s case?
A: The missing person’s case actually started out as a
Jennings County Sheriff’s Department case with
Detective Jim Blevins. He called me when, uh, he
had information that Sara was possibly dead and
possibly had died in the city limits. After I got
involved, I wanted another opinion and we called
Detective Gentry, Jerry Gentry of the Indiana
State Police, and the three of us was working it.
Q: Okay. Do you remember who gave you the
information that Ryan Marling, uh, was a friend of
Matt Loper?
A: No.
Q: Okay. Did, when you got the name then of Ryan
Marling, did you do some, uh, background or
investigation on him?
A: Yeah. We did some standard checks on him and
found out there was a warrant out of Jackson
County on him. Detective Gentry found out, uh,
some additional information that he was possibly
Page 5
involved in some drug activity, carrying a gun and
things of this nature.
Q: Okay. First of all, you mentioned a warrant. Let
me show you what’s marked for identification,
State’s Exhibit One. Can you identify that exhibit?
A: It’s a failure to appear warrant on, uh, Ryan
Marling.

82a
Q: And is State’s Exhibit One a copy of the warrant
that, uh, you found to be in effect, uh, when you
were doing this missing person’s investigation?
A: I believe so. Yes.
Q: I move to admit State’s Exhibit One.
Counsel Bradley Kage:
I don’t have any objection on that as to
cross-examination, Your Honor.
The Court:
One is admitted.
Counsel Drew Dickerson:
So you had the information that there was a
warrant for Ryan Marling. You had information
that he was possibly armed. Is that correct?
Ivory Sandefur:
That is correct.
Page 6
Q: Did you instruct, uh, uniformed officers that
worked for your department, uh, to be on the
lookout for Ryan Marling?
A: Yes, I did.
Q: Did you instruct them that there was a warrant out
for him?
A: Yes.
Q: Okay. Did you also pass on information that he
might be armed?
A: Yes.
Q: Um, in the course of your investigation into Ryan
Marling and how to maybe find him, did you, did

83a
you receive any information on, to what he might
be driving, vehicle wise?
A: Yes.
Q: Okay. What was your understanding of possible
cars that he might be driving?
A: A black Avenger.
Q: Okay. Now, specif..., and did you pass that
information on to the other officers?
A: Yes. Yes.
Q: Okay. Now, back on April twenty-fifth then, um,
did you see, did you see a car, uh, well, first of all,
did you come into contact with Ryan Marling on
that date?
Page 7
A: Yes, we did.
Q: Okay. Can you tell us, can you back track and tell
us, uh, how that came about?
A: We’d been following up on different leads on where
Sara Maggard might have been.
Um, some
information trying to narrow down the chain of
information that we was gettin’. Some of the
information that I was gettin’ was like fifth or sixth
hand and I was trying to shorten that chain back
down, you know, to the person that had more
firsthand knowledge. Uh, as we was doing that we
went out to Country Squire Lakes and we crossed
the, uh, low water bridge on the side where the
clubhouse is, going up through there, and we
passed a black Avenger going the other way. It was
heading out toward the clubhouse.
Q: When you say we, who are you talking about?

84a
A: Uh, I was riding with Detective Jerry Gentry of the
Indiana State Police. When we saw the vehicle,
you know, we looked at each other and said, you
know, that vehicle matches the description and he
turned around and we caught up to it just before it
got to the clubhouse and I was able to get the
license number and run it through dispatch at
which time he turned off on a side road and he came
back out on
Page 8
to the main road coming in.
Q: The Avenger did or Jerry did?
A: Jerry did. The Avenger went on up to the tee,
turned left and came right past us, right in front of
us heading toward the main gate, and the, uh, plate
had come back to Mr. Marling, him and his wife.
Q: Okay. And, um, did you guys, you and Gentry
continue to follow the Avenger then?
A: Yeah. Then we dropped in behind him and followed
him, um, I started calling officers to stop him
because it was his car and we had a male driving
matching his description. Had every reason, there
was a warrant out on him, a very good reason to
believe that it’s him.
Q: Okay. And you’re, you were not in uniform and
Gentry was not in uniform.
A: No. We was going in plain clothes and we was
driving an unmarked vehicle.
Q: Okay. And you got, were you able to see the driver,
get a look at him?
A: Just that it was a male driver as he went by us.

85a
Q: Okay. And did, well, you said earlier something
about it matching his description.
Page 9
A: I’ve known Mr. Marling from previous times and,
yeah...
Q: It looked like him?
A: It looked like him.
Q: Okay. Um, so at that point then you broadcast for
a uniformed officer.
A: Yes.
Q: To make a stop. You advised of the location and all
of that?
A: Yes.
Q: Okay.
A: And which direction we was traveling.
Q: Okay. Uh, Officer Day was, Officer Day made a
traffic stop then of the Avenger a short time later.
Is that right?
A: That’s correct.
Q: Where did that occur?
A: That happened on three fifty north, uh, right beside
St. Anne’s golf course.
Q: Okay. And, uh, did he make that stop at your
direction?
A: Yes.
Q: And were you following the Avenger the whole time?
Were you present at the traffic stop?
A: Yes.

86a
Page 10
Q: Okay. After Officer Day made the stop, can you tell
the court what happened after the Avenger was
stopped?
A: When it was stopped, because of the information
we had of him carrying a gun and also had
information, Detective Gentry had information
that he had made statements he wasn’t going back
to jail, a felony stop was conducted where he was
ordered out of the car and back to where he could
be secured away from the vehicle, to make sure
that he didn’t have weapons and when I went
forward to handcuff him and he was wearing an
empty shoulder holster at the time and I believe a
handgun was found in the vehicle.
Q: Alright. When, uh, when the defendant was, after
the defendant was placed in the cuffs, I assume the
Avenger was cleared to see if there was any other
passengers and that sort of thing. Is that right?
A: Yes.
Q: Okay. Uh, was the defendant transported from the
scene of the traffic stop to another location then?
A: He was transported to the Jennings County Jail by
Officer Day.
Q: Alright. And where did you go after the defendant
was taken from the scene?
Page 11
A: Sergeant Kipper was left with the vehicle to
impound and inventory it. Uh, Detective Gentry
and I went to the jail to interview Mr. Marling
about Sara Maggard.
Q: Okay.

87a
A: If he had any information on where we could find
her.
Q: Okay. Now, you were not present then for any
search of the Avenger. Is that fair to say?
A: That is correct. I was not present.
Q: Okay. Um, but did you instruct Officer Kipper or
Sergeant Kipper to do an inventory of the vehicle?
A: Inventory of a vehicle is, uh, standard policy for
any vehicle for impounding.
Q: Okay. Uh, and you couldn’t do it ‘cause you were
going to go do an interview.
A: That’s correct.
Q: And Jeff Day couldn’t do it because...
A: He was transporting him.
Q: Alright. Uh, Kipper apparently had shown up on
the scene. Who else do you remember being there?
A: There was some county officers showed up, but I
don’t remember who they were.
Q: Okay. Um, and then, uh, I know there were
different agencies involved in a missing person’s
Page 12
case, but with respect to this vehicle, did it kind of
become a North Vernon City case because Jeff
made the traffic stop?
A: Yeah. He was, he made the traffic stop off a
warrant which then developed further with items
they found in the vehicle.
Q: Okay. Uh, can you give us an overview of the chain
of custody procedures of evidence at the
department?

88a
A: Okay. An officer will collect the evidence. The
officer brings it in, packages it and puts it into, uh,
the property lockers which are then locked. The
only people who have a key to those property
lockers on those locks are the, um, detectives.
There’s three of us now. At the time there was only
two. There was, well, there would have only been
one. There was me and Detective Gary Driver.
There was only two keys but Detective Driver went
back to the road about that time. I may have been
the only one with a key.
Q: Okay.
A: To the property lockers. Then I process it from the
property locker into the property room. Then if it
needs to go the lab or whatever, then I make calls
and make the arrangements for it from there.
Page 13
Q: Is there, is there, uh, a property record kept or any
other kind of field work that’s done?
A: Yes.
Q: When a uniformed officer turns in property to you?
A: Yes.
Q: Okay. And then from the time that you put it in
the evidence room, if it’s taken to a lab or
something, that’s your responsibility.
A: Yeah. That’s correct.
Q: I want to show you what I have marked for
identification as State’s Exhibit Five. Can you
identify that document?
A: It’s North Vernon Police Department General
Order Forty-nine, Impoundment of Vehicles.

89a
Q: Was State’s Exhibit Five in effect at the City Police
Department on April twenty-fifth of 2013?
A: Yes.
Q: And then I want to show you what’s marked for
identification as State’s Exhibit Six. Can you
identify that document?
A: It’s property room record of evidence turned into
the property room reference the case five sixty-nine.
Q: And is that the case we’re here on today?
A: I believe it is. Yes.
Page 14
Q: And this property, is this report filled out, uh, by
yourself and Officer Kipper and Officer Day?
A: Yes. It’s, uh, it has here on the top entering officer.
This top one here says Jeff Day, recovering officer
Jeff Day, investigating officer Jeff Day. Um, the
second one is Craig Kipper. On down through here.
The officer fills this out when they turn it in and
they list here at the bottom, you know, that they’ve
turned it in and then I list below that what I’ve
done with the property, when I moved it from the
property locker to the property room.
Q: Okay. So...
A: And here on the second page is, there’s some items
I sent from the property room to the ISP lab.
Q: Okay. So the property that Kipper would have
turned in as a result of the inventory search, that’s
listed on State’s Exhibit Six.
A: Yes.
Q: Okay. Judge, I would move to admit State’s
Exhibits Five and Six.

90a
Counsel Bradley Kage:
No objection, Your Honor.
The Court:
Five and Six are admitted.
Page 15
Counsel Drew Dickerson:
Um, I don’t have any further questions.
QUESTIONS BY THE COURT
The Court:
Officer Sandefur, a couple of questions before we
go to Mr. Kage. Neither you or Gentry were in
uniform.
Ivory Sandefur:
That is correct.
The Court:
And he was in an unmarked unit.
Ivory Sandefur:
That is correct.
The Court:
Which is why you called for a marked unit.
Ivory Sandefur:
That is correct.
The Court:
And you, did you approach the vehicle first?
Ivory Sandefur:
No.

91a
The Court:
After it was stopped?
Ivory Sandefur:
Page 16
No. When it was stopped I became a cover officer
for Officer Day. I went to the passenger side.
The Court:
Okay. Did you, did you observe the shoulder
holster?
Ivory Sandefur:
Yes. I felt him. When he, when he backed him out
of the car, he had him get out of the car and walk
backwards to go to his knees, I went forward,
handcuffed him, at which time I did a quick pat
down and he had an empty shoulder holster on
him at that time.
The Court:
Was it under a shirt or a coat or something?
Ivory Sandefur:
Yes. Under a shirt.
The Court:
Then where did the handgun come into play? Did
you then look back in the car?
Ivory Sandefur:
I believe Officer Day went forward to the car at
that time to clear it.
The Court:
Okay.

92a
Ivory Sandefur:
Page 17
And I stayed with Mr. Marling.
The Court:
Okay. And you indicated that at one point in time
that Gentry got up behind the vehicle and got the
plate number.
Ivory Sandefur:
Yes. We got up close enough to read the plate
number.
The Court:
Did you see, did you or he call that in?
Ivory Sandefur:
Yes, I did.
The Court:
And it came back to who?
Ivory Sandefur:
Uh, Mr. Marling and his wife.
The Court:
Okay. Very well. Do those questions raise any for
your Mr. Dickerson?
CONTINUATION OF DIRECT EXAMINATION
OF IVORY SANDEFUR BY COUNSEL DREW
DICKERSON
Counsel Drew Dickerson:
Um, yeah. At the scene of the traffic stop, you
yourself didn’t actually look in the Avenger. Right?
You stayed with, uh, the defendant.

93a
Page 18
Ivory Sandefur:
Yeah, I stayed with him until it was secured.
Q: Alright. Uh, that was my only question.
CROSS-EXAMINATION OF IVORY SANDEFUR
BY COUNSEL BRADLEY KAGE
Counsel Bradley Kage:
Officer Sandefur, the failure to appear warrant
from Jackson County for a misdemeanor. Correct?
Ivory Sandefur:
That is correct.
Q: You’ve indicated that Mr. Marling, you believe, was
driving in CSL but the vehicle made a turn. Was
that a shortcut that could be taken there, where he
turned?
A: Where he turned?
Q: Yeah.
A: No, um, he actually stayed on the main road.
There’s a road that comes in from Highway Seven,
comes down to a tee.
Q: Yes.
A: And then it makes a big loop.
Q: Okay.
A: He was on the loop. He went up to where the tee
was and hung a left and then...
Page 19
Q: Alright. So he, I guess my thought was, he didn’t
take any, the vehicle didn’t take any evasive action
driving?

94a
A: No. No.
Q: Did the, uh, to try to avoid anybody. Alright. Did
the vehicle have dark tinted windows?
A: Yes.
Q: Fairly hard to see inside?
A: Yes.
Q: So I guess your testimony would be, I think initially
was, that all you could tell was that the person
driving the vehicle was a male. Is that a correct
statement?
A: Yes.
Q: And you couldn’t specifically tell if it was Mr.
Marling or not. Is that right?
A: No.
Q: Did you write a report on this particular case?
A: Yes.
Q: When the vehicle was stopped out by Saint Anne’s,
was it going, let me think of my directions, east or
west?
A: It was going east away from Highway Three.
Q: Okay. Uh, probably towards somewhere back in
there.
Page 20
A: Yes.
Q: So the stop was made on the right hand side of the
road going east obviously?
A: I believe we took up the whole road when we made...

95a
Q: I think that solves the question. Was the vehicle
then pulled over off the traveled portion of the road
or was some on the travelled portion of the road?
A: I don’t think he could get off the travelled portion
of the road through that stretch of road. I think he
was still on the road. Now, you could of got a car
past him.
Q: Okay.
A: You, I mean...
Q: Cars could have gone past.
A: Yeah, cars could have gone past. It was not...
Q: Was any of the vehicle off the travelled portion of
the road, if you can remember?
A: Was it what, Mr. Kage?
Q: Any of the vehicle off the travelled portion?
A: I don’t remember. I mean, if it was, it was just
barely, barely off the road.
Q: Okay.
A: He would have just barely had some wheels off the
road if he was off the travelled portion of the
Page 21
road. I don’t believe he was.
Q: And Officer Sandefur, just for the record, Sara
Maggard later turned up, did she not?
A: Yeah, she turned up alive later.
Q: Sometime after April twenty-fifth I believe.
A: Yes.

96a
Q: If I could have just a minute, Your Honor. It is my
understanding that the inventory search was done
by Officer Kipper.
A: That is correct.
Q: And there was a duffel bag that was found. Is that
correct, from the trunk, during the inventory
search? Do you know?
A: Without referring back to his report and the, uh,
property, no, I don’t.
Q: Okay. Uh, so any duffel bag or any box that would
have been opened, would have been opened by
Officer Kipper. Is that correct?
A: That is correct.
Q: Alright. That’s all the questions, Your Honor.
Counsel Drew Dickerson:
I don’t have any additional questions.
QUESTIONS BY THE COURT
The Court:
Page 22
Mr. Sandefur, Officer Sandefur, am I to
understand then that the vehicle was towed from
the county road to another location?
Ivory Sandefur:
Yes.
The Court:
And where was that?
Ivory Sandefur:
It’s at Lucas Wrecker.

97a
The Court:
And is that where the actual search took place?
Ivory Sandefur:
I do not know.
The Court:
You do not know. Okay. Mr. Dickerson, does that
raise anything for you?
Counsel Drew Dickerson:
No.
The Court:
Mr. Kage?
Counsel Bradley Kage:
No, Your Honor.
The Court:
Thank you, sir. Next witness.
Counsel Drew Dickerson:
Page 23
I call Jeff Day.
The Court:
He can stay there with you, Mr. Dickerson. Officer
Day, you can stay with Mr. Dickerson or you can sit
there. Wherever you’d like. It doesn’t matter.
Raise your right hand. Do you swear or affirm
under the pains and penalties of perjury that the
testimony you shall give will be the truth and the
whole truth? If so, say, I do.
Jeff Day:
I do.

98a
The Court:
Have a seat, Mr. Dickerson.
DIRECT EXAMINATION OF JEFF DAY
BY COUNSEL DREW DICKERSON
Counsel Drew Dickerson:
Would you state for the record your name and
occupation please?
Jeff Day:
My name is Jeffrey S. Day. I’m a North Vernon
police officer. I serve as a detective with the North
Vernon Police Department.
Q: Okay. Now, uh, back on April twenty-fifth of 2013,
uh, were you employed by the city police
department ?
Page 24
A: I was.
Q: And at that time, were you a detective?
A: I was not.
Q: Okay. What were your duties at that time?
A: My duties at that point was a patrol officer. I
worked the shift from six-thirty a.m. to six p.m., a
twelve hour shift.
Q: Okay. On that date roughly a little after four in the
afternoon, did you make a traffic stop of a car
driven by the defendant in this case, Ryan Marling?
A: Yes, I did.
Q: Okay. Um, prior to that traffic stop, while on duty,
had you received any information from Detective
Sandefur concerning Ryan Marling?
A: Yes, I did.

99a
Q: Do you remember what you were advised?
A: Yes. He had told me that, uh, Ryan Marling was
wanted on a warrant. Um, that he was driving a
black Avenger and was also carrying, uh, in
possession or could be in possession of a gun and
that he had made statements and it was relayed to
me through Detective Sandefur that he had made
comments that he would not go back to jail.
Q: Okay. Now, where specifically was your traffic stop
made of the defendant on April twenty-fifth?
Page 25
A: The location?
Q: Yes.
A: It was, um, actually it was, um, County Road Three
Fifty North, the intersection of Medical Drive. Um,
Mr. Marling was in front of me heading eastbound,
uh, down Three Fifty North, which would put Saint
Anne’s golf course on our left side. Um, I turned on
the lights and siren and he pulled over to the right
side of the road.
Q: Okay. And how did you happen to be at that
location?
A: Um, Detective Sandefur had actually contacted me
and radioed out that they were behind a black
Avenger, um, so I started that way immediately.
Q: Okay. And did you initiate your traffic stop at
Detective Sandefur’s request?
A: That’s correct.
Q: Okay. Now, were you in a marked police car at that
point?
A: I was in a fully marked police car and in uniform.

100a
Q: Alright. Now, when you made this traffic stop, uh,
did you conduct it in what’s known as felony stop
and, if so, for the record, would you describe what
that means?
Page 26
A: Um, yes, I did. I conducted it based upon what we
police officers call a felony stop. Mainly for the
safety of the officers involved and anyone taking a
vehicle down in that nature due to the
circumstances as in carrying a gun, maybe the
statements that may have been made, uh, concerns
of safety. Um, when you do that, basically you can
do different positions, behind your police car, you
can stay in the police car, you can call out on a P.A.,
um, you can step outside the door. I chose to step
outside the door and give him verbal commands,
loud verbal commands.
Q: Okay. And did you have your gun drawn?
A: I did.
Q: Alright. And that’s different than a typical traffic
stop. Is that correct?
A: Yes.
Q: Alright. Um, now, when you made this traffic stop,
were you wearing any kind of recording device.
A: I was.
Q: And what were you wearing?
A: We have a small miniature type camera that, um ,
records audio and also video.
Q: Alright. And did you video and audio tape, tape’s
probably the wrong word, but did you video and

101a
Page 27
audio record this traffic stop in your encounter on
Three Fifty North?
A: Yes, I did.
Q: Now, I want to show you what’s been marked for
identification as State’s Exhibit Two. Can you
identify that exhibit?
A: That’s a copy of the DVD that we went over and
that you showed me and that I signed. Those are
my initials and the date I put on there.
Q: And that, this accurately reflects the actual traffic
stop. Is that right?
A: Yes, it does.
Q: Okay. Um, you, uh, the Avenger pulled over and
you ordered the defendant out of the, out of the car.
Is that right?
A: Um, I did.
Q: And did he get out of the car?
A: Um, I commanded him to actually put his hands up
high and open up the door from the outside, but it
was locked. Um, so then I had him put his hands
back inside to unlock it and then step out of the car
and then to interlock his fingers and walk back
towards us and then go to his knees so then we
could advance up onto him. While covering him, I,
actually Detective Sandefur advanced up onto him.
Page 28
Q: Okay. And Ivory handcuffed then. Is that right?
A: That’s correct.

102a
Q: Okay. What, once the defendant was handcuffed,
what did you do next?
A: Then I went to the right side of the car and just did
a quick clearance of the car just looking for anybody
else that may be laying down in the backseat that
I couldn’t see or could have been hunched down on
the floorboard somewhere.
Q: Okay. Now, do you remember who else was present
at the time of the stop?
A: Um, at that particular time, Detective Gentry was
with, um, Detective Sandefur and whenever I
approached the car, Detective Gentry from the
state police also came up to the car with me.
Q: Okay. Uh, were there any other passengers or
occupants in the car?
A: There was nobody else in there.
Q: Alright. Did you see any weapons in there, in the
compartment, in the driver’s compartment of the
car?
A: Yeah. When I went up and I opened up the door,
um, actually on the video camera, I pointed out the
gun just to make the other officer aware that there
was a gun there. Um, it appeared to be some type
of
Page 29
Colt Forty-five, 1911, uh, structure, ‘cause I noticed
the hammer was what we call or what I know as
cocked and locked, where the hammer is drawn all
the way back. Normally, the safety is put up to
hold it back and it was tucked between the console
and the driver’s seat on the lower portion of the
seat where they would sit.

103a
Q: Okay. Let me show you what’s marked for
identification as State’s Exhibit Three. Is this a
fair and accurate depiction of the gun as you saw it?
A: Yes.
Q: In the Avenger on that date?
A: That’s correct.
Q: Okay. At some point during the traffic stop, did
you ask the defendant if he had a handgun permit?
A: I did ask him, um, when he was with Detective
Sandefur, if he had a handgun permit and he told
me no.
Q: Alright. Um, okay, so the first cleared, the
defendant is in custody at this point outside of the
Avenger. Is that right?
A: Yes.
Q: What are you trying to do next?
Page 30
A: Um, my duty at that point would be to go ahead
and transport him down to the jail.
Q: And did you do that?
A: I did.
Q: Okay. And, uh, did you meet, at the jail did you
meet Detectives Sandefur and Gentry, uh, who
were there to interview the defendant?
A: Um, actually they got him into the book-in area and
then they later came down.
Q: Alright. Okay. Uh, was Kipper on the scene before
you left?
A: Yes. Sergeant Kipper was on the scene before I left.

104a
Q: Okay. And did it become basically his function to
do the inventory, well, to impound the car and do
the inventory procedure and have it towed?
A: Yes.
Q: Okay. Judge, I would move to admit State’s
Exhibits Two and Three.
Counsel Bradley Kage:
For the purpose of this hearing, Your Honor, I don’t
have any objection. Obviously, the admissibility of
the gun is one of the things that we are challenging
in the motion to suppress through our paragraph
number one.
Page 31
The Court:
Well, by looking at a picture of it, Mr. Kage, I’m not
determining that...
Counsel Bradley Kage:
Okay.
The Court:
It’s admissible.
Counsel Bradley Kage:
I just wanted to be clear on that on the record.
The Court:
Very good.
Counsel Bradley Kage:
But other than that...
The Court:
Two and Three are admitted.

105a
Counsel Bradley Kage:
For the purposes of this hearing, no objection.
Counsel Drew Dickerson:
I don’t have any other questions for the detective
right now. Uh, unless Brad wants to do it
differently, I just move to publish Two now.
Counsel Bradley Kage:
I don’t have an objection and maybe I should do...,
I don’t have a lot of cross-examination. Maybe I
should do that first and then we can watch it. It
Page 32
is my understanding that it’s about five minutes.
Counsel Drew Dickerson:
Well, the actual, the actual, the whole thing’s
nearly fifteen.
Counsel Bradley Kage:
Okay.
Counsel Drew Dickerson:
Well, the relative part for us is only going to be
about five or so.
Counsel Bradley Kage:
For today.
Counsel Drew Dickerson:
Yeah.
Counsel Bradley Kage:
But when we move down the road, it’ll be...
The Court:
Two is admitted.

106a
Counsel Bradley Kage:
Okay.
The Court:
Go ahead with your questions.
Counsel Drew Dickerson:
I don’t have anything further.
The Court:
Page 33
Cross.
CROSS-EXAMINATION OF JEFF DAY
BY COUNSEL BRADLEY KAGE
Counsel Bradley Kage:
Detective Day, I asked Ivory about this.
vehicle had dark tinted windows.

The

Jeffrey Day:
It had tinted windows.
Q: Okay. Was it hard to see inside to see exactly who
was driving?
A: I could, I could see the silhouette of the person in
there. Uh, to, from the side, ‘cause I just saw the
side at first and then when I came up on the rear
of it then I was able to look through the tinted
window also.
Q: Where did you first encounter this vehicle?
A: Um, actually I saw the vehicle go by because I came
up Seventy-five West first which would be for
common purposes, Dave O’Mara’s Service Center.
Q: Okay.

107a
A: That’s Seventy-five West. And then when I came
up here to the stop sign, so then when I came up
and turned right and then caught up to him. We
come up to the next stop sign which would be Three
Fifty and Medical Drive.
Page 34
Q: And obviously there were no traffic violations or
anything like that, no speeding.
A: Not that I observed. No evasive driving, erratic
driving.
Q: Okay. I believe, if you’ll take a look at your report,
in your report you mentioned you had information
about the warrant and the possibility of being in
possession of a gun. Is that correct?
A: Yes.
Q: Okay. Um, and were you aware that that was a
misdemeanor warrant as opposed to a felony
warrant?
A: Um, actually I took it as being that it was a failure
to appear when it was on a marijuana felony charge.
Q: Okay. You sure it wasn’t, you sure it was a felony?
A: Um, from my understanding the, it was on the
original charge of a felony, uh, marijuana.
Q: Okay.
A: But I may have looked, may have...
Q: I think you had testified here today that there were
three things that you were told about this vehicle
and I don’t recall the third one. You said something
about the possibility of there being warrant, in
possession of a gun, and there was a

108a
Page 35
third thing that I think you indicated a few
minutes ago. Do you recall what that was?
A: Um, other than, uh, Detective Sandefur passed
along information that he had, that he had gotten
information that he wouldn’t go back to jail.
Q: Okay. And that’s not reflected in your report, is it?
A: No.
Q: Alright. And, again, the inventory search after the
impound was done by Officer Kipper. Is that
correct?
A: I’m not sure of the process because once I left, I’m
not sure at what point, you know, if he did the
inventory prior to the actual impound or it went to
the impound lot or how he did it.
Q: You were, uh, Ivory testified about how the vehicle
was situated when it was stopped. Do you agree
with his testimony?
A: Um, I don’t recall it being off the edge of the
roadway. Um, I think the video on my camera may
show the position...
Q: Okay. So you think that would show it.
A: Um-hum.
Q: Do you agree with his testimony that obviously
vehicles could have gotten around it?
Page 36
A: Uhhh...
Q: On the other side.
A: At the point when we were there, I’m going to say
that nobody could pass by because we occupied the

109a
space with police officers. Um, yes, the vehicle was
in a position that there was one lane maybe open.
Q: Let’s forget about the police cars.
A: Okay.
Q: Then vehicles could have gotten around it. Correct?
A: Uhhh, with one lane.
Q: I understand. Now, your, uh, your audio video
camera that you took this exhibit by, just so I know,
did you keep that running the entire time down to
the jail? Do you remember?
A: I had it on, but I think it went dead prior to us
getting down there. At one point it went dead, I’m
not sure.
Q: You’re not sure. So when did you turn it on?
A: Um, actually it was just prior to the stop when I
was coming up behind the vehicle.
Q: And then at some point after you took Mr. Marling
into custody, then it went dead on the way to the
jail.
Page 37
A: On the way, on the transport down, ‘cause I had it
on on some other cases.
Q: Alright. I don’t have any, uh, further questions,
Your Honor.
The Court:
Mr. Dickerson?

110a
RE-DIRECT EXAMINATION OF JEFF DAY
BY COUNSEL DREW DICKERSON
Counsel Drew Dickerson:
Just, uh, some real quick. Where, where on your
body was that, was that recorder?
Jeff Day:
Um, I had a police uniform shirt on, but I usually
just put that right up on the chest, right on my
chest so whenever I’m interviewing someone in
close proximity, then it actually shows their faces,
their chest area.
Q: Okay. So the perspective that’s on the video is
basically from your chest level.
A: Correct.
Q: I don’t have any other questions.
The Court:
The Court:
Mr. Kage?
Counsel Bradley Kage:
Page 38
Um, no other questions, Your Honor.
Counsel Drew Dickerson:
I move to publish then.
Counsel Bradley Kage:
I have no objection.
The Court:
Are you going to set that up on a laptop?
Counsel Drew Dickerson:
Yeah.

111a
COURT REPORTER NOTE:
Judge leaves so record is off while DVD is being set
up.
The Court:
Let the record show that we are back to play an
audio video. Is there audio as well?
Counsel Drew Dickerson:
Yes.
The Court:
Well, audio, video, DVD, CD. Go ahead, Drew.
COURT REPORTER NOTE:
Audio video is available for review upon request.
Audio:
Officer Day to Dispatch:
by the golf course (inaudible).
Page 39
Dispatcher:
Are you by the golf course?
Officer Day: up by Calhoun’s Corner.
VNV328. Driver, roll your window down. Roll your
window down. Put your hands outside the window.
What’s your name?
Ryan Marling:
(inaudible)
Officer Day:
What’s your name?
Ryan Marling:
Ryan Marling.

112a
Officer Day:
Ryan Marling. Okay. Now what I want you to do
is I want you to use your hands on the outside of
the car. I want you to open up your door and I want
you to walk out. Do you understand me?
Ryan Marling:
(inaudible)
Officer Day:
You keep your hands on the outside, grab that door
handle and let yourself out.
Ryan Marling:
I can’t unlock the door.
Page 40
Officer Day:
Reach in there very slowly. Unlock your door and
then put your hands back out slowly. Alright. Now,
do what I just told you. Left hand on the door
handle. Open it up. Step out slowly. Keep walking
back towards me backwards.
Keep coming.
Alright. Stop. Hands on top of your head, interlock
your fingers now. Drop to your knees. Drop to your
knees! There’s going to be an officer approaching
you. Do not make the wrong move.
Dispatch:
(inaudible)
Unknown Speaker:
It’s on double lock.
Unknown Speaker:
Okay.
Officer Day:

113a
Are there any other weapons besides what’s in the
car? Do you have any other weapons beside what’s
in the car? On your person?
Ryan Marling:
I don’t want to...shoulder holster.
Officer Day:
Is the other weapon in the car?
Page 41
Ryan Marling:
Yes.
Officer Day:
Do you have a permit for the weapon?
Ryan Marling:
No.
Officer Day:
What’s that?
Ryan Marling:
No.
Officer:
Okay. The handgun in the front seat does not have
a permit.
Unknown Speakers:
(inaudible)
Officer Day:
Last name Marling. First name Raymond Ryan.
Unknown Speakers:
(inaudible)

114a
Counsel Drew Dickerson:
Basically the rest of it is...
Counsel Bradley Kage:
Yeah later but at trial.
The Court:
I’ll take the DVD.
Page 42
The Court:
Mr. Dickerson, after watching the DVD CD, do
you wish to recall Officer Day?
Counsel Drew Dickerson:
No.
The Court:
Mr. Kage, you have the opportunity, having
watched that to talk to Officer Day further.
Counsel Bradley Kage:
No. No questions, Your Honor.
The Court:
Next witness.
Counsel Drew Dickerson:
Judge, I don’t have any other witnesses. Uh,
Kipper is in training and unavailable this morning.
Uh, I do have one other exhibit. I’d offer State’s
Exhibit Four which is basically his police report.
Counsel Bradley Kage:
Uh, I was going to offer that. I do not have any
objection to that either.

115a
The Court:
State’s Four is admitted.
Counsel Drew Dickerson:
Page 43
And also just to keep the record clear, I think it’s
referred to in that, in Kipper’s report, but I want to
stipulate, uh, that there was a, uh, locked container
in the truck that was opened by Kipper with a
screwdriver pursuant to the search.
Counsel Bradley Kage:
Your Honor, I do have an omitted question for
Detective Day, if I may.
The Court:
You may.
RE-CROSS EXAMINATION OF JEFF DAY
BY COUNSEL BRADLEY KAGE
Counsel Bradley Kage:
Detective Day, I’m safe in saying that before you
made the traffic stop, you didn’t know specifically
that this was Ryan Marling, did you?
Jeff Day:
Specifically, no.
Q: Okay. That’s all the questions I have, Your Honor.
The Court:
Did that raise any for you, Mr. Dickerson?
Page 44
Counsel Drew Dickerson:
No, Your Honor.

116a
The Court:

Additional evidence?

Counsel Drew Dickerson:
We rest.
The Court:
Mr. Kage.
Counsel Bradley Kage:
Your Honor, I was going to offer Officer Kipper’s
report and that was going to be my evidence. We
would rest on that.
The Court:
Do I have the entirety of his report? Is that correct?
Counsel Bradley Kage:
I believe you do.
The Court:
One page.
Counsel Bradley Kage:
Yes.
The Court:
It’s the whole thing.
Counsel Bradley Kage:
Yes.
The Court:
Page 45
It’s already in.
Counsel Bradley Kage:
Then I do have some, uh, I know, I know we’re a
little bit short of time today, but I do have three
cases.

117a
The Court:
Well, I’d like to hear argument.
Counsel Bradley Kage:
Okay.
The Court:
If you want to make, uh, and Mr. Dickerson, you
have the burden here so you go first.
Counsel Drew Dickerson:
Um, first of all I would point out on, I think it’s
State’s Exhibit Five. It’s the, uh, the police
department SOPs. On page four, uh, it describes
the policy of impounding motor vehicles at the
bottom of page four and then on to page five. Um,
but in this case, uh, the car had to be impounded
and I think it’s obvious from the video, uh, why that
is, but it couldn’t be left on a county road in the
position that it was. There were obviously no other
licensed, uh, drivers to take possession of the car.
Uh, nobody else was there with
Page 46
it. Uh, but then as far as the, what’s to be
inventoried when a car is impounded then, uh,
specifically the trunk and cargo areas and that’s
what was addressed in the motion, and then this,
uh, the important thing is this particular standard
operating procedure has a specific provision for
closed and/or locked containers and the officers are
told that they have to inventory all closed or locked
containers. The reason that’s important is because
in the defendant’s motion, Mr. Kage cited George
versus State and basically, uh, George relies
heavily on a case, Lucas versus State. But both of

118a
these Indiana cases deal with this concept of locked
or closed containers, uh, and the gist of these,
actually, in George the actual issue is a little
different because in that one the evidence they’re
talking about was basically a pill bottle in a lidless
condom box and the actual issue in that case, uh,
wasn’t this locked container issue that we have, but
it was whether those officers could, when they
found the pills, whether they could call poison
control. But it does, it does talk
Page 47
about this issue and then it points us to the Lucas
case. Both of these cases though basically say, they
hold, uh, that when there’s no, they want policies
that don’t give the officers, you know, discretion to
just rummage and, uh, what’s interesting, both of
these cases came from Shelby County. Lucas, at
the time of the Lucas search, which came first, the
Shelby County Sheriff’s Department policy didn’t
have any, it may have referenced, uh, closed
containers but it made no reference to what the
officers were supposed to do with locked containers
and on page eight of that decision, uh, that’s what
the court said. Well, you know, you don’t have, it
made no reference to, uh, a locked container and so
there’s no clear department policy or procedure do
mandate opening of a locked container as part of an
inventory search. A couple of years later the same
Sheriff’s Department, and it’s noted in the George
opinion that they had changed their SOPs and it,
now it did include locked containers. Um, and they
talked about on page seven again that, um, if
there’s not, if

119a
Page 48
there’s not something that says you can open a
locked container then you can’t do it. Uh, and then
they also rely, they point us to the United States
Supreme Court case of Wells there on page six they
talk about permissible policies. I would point out
in Wells I think, uh, they don’t make a distinction
between closed and locked. I think in Wells the
container was actually locked and they only talk
about it being closed. But anyway, in this issue as
far as, as far as the box or anything in the trunk
that was opened, here the police department’s
policy, it’s clear Sergeant Kipper doesn’t have this
discretion to rummage through. He, he’s got to
follow his, uh, his standard operating procedures
and that’s what the Opperman case is, that started
the inventory searches. The officers have to be
following a procedure by their department and
that’s what Kipper did in this case. As far as the
traffic stop in this case, um, paragraph one of the
motion says the stopping officer didn’t have specific
and articulable facts supporting it. I suppose
technically that’s true. He didn’t see any traffic
Page 49
violations or anything like that, but he was the
uniformed officer who was making this traffic stop
at the direction of the detective, uh, who had every
reason to believe that Ryan, that he had located
Ryan Marling and Ryan Marling had an active
felony warrant. State’s Exhibit One, I think, is an
FD cause number out of Jackson County. Um, the
car was registered, according to dispatch the car
was registered to the defendant. Ivory had seen the

120a
defendant pass and it appeared to be him or
possibly him driving the defendant’s car. There’s a
warrant out and he also wanted to talk to him
obviously about this other case, but regardless of
how his name came up, the fact is, they’re looking
for him. There’s a warrant and there’s every
reason to believe that that’s who is driving this car
so, uh, he’s within, it’s permissible for him to
request a uniformed officer in a marked car to
make a traffic stop. So I think, you know, based on
the evidence, and we have the best evidence of how
the traffic stop was conducted. Anyway, I mean,
it’s all there in State’s Exhibit Two, but, uh, you
know,
Page 50
there’s a warrant, reason to believe it’s him driving
his car, uh, and we have a uniformed officer in a
marked car making the actual stop and then
Kipper’s following the North Vernon policy. That’s
all.
Counsel Bradley Kage:
Your Honor, in terms of our motion to suppress, I’ll
argue this very briefly. In one, two and three as
I’ve filed it in the motion, or as I set out in the
motion, particularly the impounding in the traffic
stop in this particular case as not being supported
by, uh, specific and articulable facts. The case that
I will cite that the court could look to for some rules
would be State versus Ritter 801 N.E.2d 689. It’s a
2004 Indiana Appellate Court case. I do not have
a copy of that case unfortunately, but that set forth
the rules concerning traffic stops. Secondly, the,
uh, we are also challenging the impound and the

121a
resulting inventory search, um, under the case of
Jones versus State which is at N.E., I don’t have
that, yeah, I do have that.
The Court:
Page 51
If you have it there, Mr. Kage...
Counsel Bradley Kage:
I, I have it, I do have it the case, Your Honor, but
just for the record it’s 856 N.E.2d 758 (2006)
Indiana Appellate Court case that basically says
that’s just showing that the vehicle was where they,
uh, was a threat to the safety of the community as
it was parked after the, uh, traffic stop here to
justify the impound and the resulting inventory
search and we don’t believe that there’s been a
showing here by the, by the State on that. In fact,
the language that I cited in paragraph two of the
motion to suppress generally comes from that
Jones case and we, and we think that the State has
not shown the vehicle did pose any threat or harm
to the community or itself. Um, and, therefore,
that the impound and the inventory search should
not been have done, should not have been done.
Now, the George case is a case that I cited in
support of our, um, intention that opening the
duffel bag and opening the two boxes should not
been, should not have been done. Despite the
policy that the North Vernon Police Department
has, if you
Page 52
will read the George case and specifically at 901
N.E.2d at page 597 towards the end of the case, the

122a
Indiana Court of Appeals stated: police officers
should not be burdened with a warrant
requirement under such circumstances because as
the State in its delay might result in someone
missing a scheduled dosage of medication. That
was, as Mr. Dickerson said, that was a pill bottle in
that particular case that was opened. Here we had
a duffel bag that was opened, two boxes that were
opened and even another box that was locked and
was opened with a screwdriver. Now, to say that
the caretaking function of the State here would
have been satisfied by opening those because
somebody may have missed a scheduled
medication dosage, I don’t think there’s any
showing of that and, of course, the State bears the
burden of proof here and we don’t think that they
have satisfied that burden of proof by showing that
there’s been an exception to the warrant clause and
we continue to maintain and continue to argue that
a warrant should have been obtained to open those
boxes and those paragraphs relating
Page 53
to what was found in the trunk and what was
opened by Officer Kipper are in the last two
paragraphs, Your Honor, of I believe what was
State’s Exhibit Four, his report, and that a warrant
should have been obtained for those because there
really weren’t any despite the policy, there was no
showing that there was anything exigent and
should have required opening those at that time
and there should have been a warrant obtained to
get those. The court will also note from its file,
later there was a search warrant that was obtained
for some cell phones and things like that and the

123a
State could have as part of its affidavit, the police
could have and the State as part of its affidavit in
support of search warrant, in support of its search
warrant could have asked that those items be
opened, but they had already been done as part of
the inventory despite that language in the George
case and despite the policy, we contend that, uh,
the North Vernon Police Department had, Your
Honor. So, in terms of suppression, it kind of
moves down the line. It kind of moves down the
chain. We’re asking that the gun be
Page 54
suppressed as being a bad traffic stop as I argued
briefly before.
We’re asking then that the
inventory search, uh, everything found as a result
of the inventory search be suppressed because of
paragraph two of my motion and also because of the
bad stop. I touched upon both of those in my
motion, and then further, even if you would find
that the stop was good and the decision to impound
and make the inventory search was permissible
under the Indiana Constitution and under the law,
that only the containers was not permitted by the
language in the George case. So there’s, these are
not contingent arguments and that would mean
that the things that were found in the duffel bag,
in the box and in the other locked box should then
be suppressed even if you find that the original stop
and the decision to impound and make the
inventory proper, we believe then that there should
have been warrants or a warrant, search warrant
obtained for those things, Your Honor.

124a
The Court:
Mr. Marling, the facts relevant to the suppression
issue are really not much in
Page 55
dispute. They are what they are. I’m going to, Mr.
Kage has given me two cases to read. Mr.
Dickerson has given me three cases to read. They
obviously feel those are important and I need to
review them and I do need to read them. So I will
be doing that tonight or tomorrow night and when
I make a ruling in the next few days, because a trial
is imminent here depending upon which way I go.
The attorneys need to know where this suppression
is going to end up. I’ll let Mr. Kage know and he’ll
let you know and, Mr. Dickerson, I’ll let you know
as well.
Counsel Bradley Kage:
Thank you, Your Honor.

125a

APPENDIX N
IN THE
COURT OF APPEALS OF INDIANA
___________________
No. 40A01-1403-CR-109
___________________
RAYMOND RYAN
MARLING,
Appellant,
v.
STATE OF INDIANA,
Appellee.

)
)
)
)
)
)
)
)
)
)

Appeal from the
Jennings Circuit
Court
Trial Court Case
No.: 40C01-1305FA-007
The Honorable Jon
W. Webster

APPELLANT’S BRIEF
R. Patrick Magrath
# 26467-53
ALCORN GOERING & SAGE,
LLP
Attorneys for APPELLANT
One West Sixth Street
Madison, IN 47250
(812) 273-5230

126a
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... ii
STATEMENT OF ISSUES........................................ 1
STATEMENT OF CASE ........................................... 2
STATEMENT OF FACTS ......................................... 5
SUMMARY OF ARGUMENT .................................. 7
ARGUMENT .............................................................. 8
A.

Whether Evidence Obtained From Closed
and Locked Containers During An
“Inventory Search” Should Have Been
Excluded From Admission ................................ 8

B.

Whether The Evidence Was Sufficient To
Support A Conviction for Dealing ................... 10

C.

Whether Marling’s Sentence Could Be
Enhanced For A First Time Dealing
Offense ............................................................. 12

CONCLUSION ........................................................ 15
CERTIFICATE OF SERVICE................................. 16

127a
TABLE OF AUTHORITIES
Cases
Armour v. State,
762 N.E.2d 208, 215 (Ind. Ct. App. 2002) ........... 11
Brown v. State,
653 N.E.2d 77 (Ind. 1995)...................................... 8
Burkes v. State,
842 N.E.2d 426 (Ind. Ct. App. 2006) ..................... 8
Cox v. State,
774 N.E.2d 1025, 1029 (Ind. Ct. App. 2002) ....... 11
Isom v. State,
589 N.E.2d 245 (Ind. Ct. App. 1992) ............. 11, 12
Johnson v. State,
594 N.E.2d 817 (Ind. Ct. App. 1992) ............. 11, 12
Joyner v. State,
678 N.E.2d 386 (Ind. 1997).................................... 8
Litchfield v. State,
824 N.E.2d 356, 361 (Ind. 2005)............................ 9
Shuai v. State,
966 N.E.2d 619, 628 (Ind. Ct. App. 2012) ........... 14
State v. Lucas,
859 N.E.2d 1244, 1251 (Ind. Ct. App. 2007) ... 9, 10
Taylor v. State,
842 N.E.2d 327 (Ind. 2006).................................... 8
Statutes
IC 35-48-4-1 ....................................................... 12, 13
Ind. Code Sec. 35-48-4 et. al. ................................... 12
Ind. Code Sec. 35-48-4-6(b)(1)(B) ............................ 14
Ind. Code Sec. 35-50-2-13 ........................................ 13

128a
Ind. Code Sec. 35-50-2-2(b)(4) ............................. 3, 13
Ind. Code Sec. 35-50-2-2(b)(4)(O) ........................ 3, 13
Ind. Code Sec. 35-50-2-8 ...................................... 3, 12
Other Authorities
Article I, Section 11 of the
Indiana Constitution ......................................... 8, 9

129a
STATEMENT OF ISSUES
I.

Whether evidence obtained as a result of a
pretextual inventory search that included
locked containers should have been excluded
from presentation to the jury.

II.

Whether the discovery of a small undivided
amount of cocaine is sufficient to support a
conviction for dealing in cocaine.

III.

Whether a habitual offender enhancement may
be sought for a dealing in cocaine conviction
when the defendant has no prior dealing
convictions.

130a
STATEMENT OF CASE
On May 1, 2013, the State of Indiana filed with the
Jennings Circuit Court an eight (8) count charging
information under cause number 40C01-1305-FA-7
naming Raymond Marling as the Defendant. (App.
25–32). Specifically, Marling was charged with count
I, dealing in cocaine as a class A felony; count II,
possession of cocaine as a class C felony; count III,
carrying a handgun without a license as a class C
felony; count IV, possession of a controlled substance
as a class D felony; count V, possession of a controlled
substance as a class D felony; count VI, unlawful
possession of a legend drug as a class D felony; count
VII, unlawful possession of a legend drug as a class D
felony; and count VIII, unlawful possession of a legend
drug as a class D felony. (App. 25–32). Specifically,
the probable cause affidavit alleged that on April 25,
2013 law enforcement found several pills without
prescription, a hand gun and cocaine with a cutting
agent during a search of Marling’s vehicle. (App 23–
24).
The State sought a habitual offender sentence
enhancement on the allegation that Marling had two
prior unrelated felony convictions. (App. 33). The
State also sought an enhancement of count III,
carrying a handgun without a license to C felony
status on the allegation that Marling had a prior
felony conviction for criminal recklessness. (App. 34).
On September 20, 2013, Marling filed a motion to
suppress all evidence discovered as a result of the stop
conducted on his vehicle and the subsequent inventory
search. (App. 51). On October 16, 2013, the trial court
held a hearing on Marling’s motion to suppress. (App.

131a
64, Tr. 1–55). On October 17, 2013, the trial court
denied Marling’s motion to suppress finding the stop
of Marling’s vehicle to be proper under the totality of
the circumstances and finding the inventory search to
be proper including the opening of locked containers.
(App. 69–70). Marling renewed his objection to the
evidence obtained as a result of the stop and search as
an ongoing objection prior to the introduction of the
evidence at trial. (Tr. 224–226). Marling preserved
his objection at several additional points in the
introduction of the evidence. (Tr. 230, 269, 336, etc.)
Also on October 16, 2013, the State amended the
charging information to reduce count I, dealing in
cocaine from a class A felony to a class B felony as a
result of the weight of the cocaine seized. (App. 65).
Jury trial commenced on October 21, 2014 and
continued from day to day through October 23, 2013.
(Tr. 56–553). At the conclusion of the State’s evidence
Marling moved for dismissal of count III, possession of
a handgun without a license on the basis of the
statutory exception; the motion was denied. (Tr. 379–
381). Marling also moved for dismissal of count V,
possession of a controlled substance on the basis of the
evidence that the evidence demonstrated that the
substance in question was not “controlled” by Indiana
law until after the date of the offense; the motion was
granted and a directed verdict entered on count V. (Tr.
382–385). At the completion of the evidence, the jury
returned a verdict of guilty on all of the remaining
counts. (Tr. 553).
The trial court held a second phase of trial on the
enhancement of count III. (Tr. 556). The jury

132a
returned a verdict of guilty on the count III
enhancement. (Tr. 571).
On October 23, 2013, Marling filed a motion to
dismiss the habitual offender enhancement, arguing
that none of the counts could support a habitual
offender finding by the jury under Ind. Code Sec. 3550-2-8. (App. 79). On October 24, 2013, following the
first two phases of trial, the trial court held hearing on
Marling’s motion to dismiss. (Tr. 575–580). The
motion was denied on the basis of the trial court’s
determination that the verdicts were sufficient to
support a habitual offender enhancement under Ind.
Code Sec. 35-50-2-2(b)(4)(O).
(App. 81–82).
Following a brief third phase of trial, the jury returned
a verdict of guilty on the sentencing enhancement.
(Tr. 620).
On February 20, 2014, the trial court held a hearing
on sentencing. (Tr. 623). After the presentation of
evidence the trial court entered sentencing as follows:
thirteen (13) years executed on count I, dealing in
cocaine, consecutive to twenty (20) years for the
habitual offender enhancement, and five (5) years on
the enhanced count III, possession of a handgun
without a license with a prior conviction. (Tr. 691). On
February 20, 2014, the trial court entered its
sentencing order. (App. 88).
Marling filed his notice of appeal on March 7, 2014.
(Docket). Notice of completion of the clerk’s record was
filed on April 23, 2014. (Docket). Notice of completion
of the clerk’s record was filed on June 4, 2014.

133a
(Docket). Marling now timely files his appellant’s brief
on July 7, 20141.
STATEMENT OF FACTS
On April 25, 2013, Detective Sandefur of the North
Vernon Police Department was investigating a
missing persons report. (Tr. 3, 307). Sandefur was
attempting to locate a man named Loper as a target of
the investigation. (Tr. 3, 308). Sandefur testified that
Marling’s name came up in connection with Loper,
although Sandefur could not remember how. (Tr. 4).
Sandefur also testified that he learned that Marling
had an active warrant for failure to appear. (Tr. 5,
309). Sandefur stated that he had heard that Marling
had a gun and drove a black Avenger, again Sandefur
did not disclose where he received this information.
(Tr. 5–6, 309).
On the date in question, while looking for someone
else, Sandefur saw a black Avenger and decided to
follow it. (Tr. 7, 311). The windows were tinted and it
was not possible to identify the driver. (Tr. 19, 332).
Sandefur called in the license plate of the vehicle
which came back to Marling. (Tr. 8, 312). Sandefur
then radioed for a uniformed officer, Day, to conduct a
stop on the vehicle. (Tr. 10, 314). The driver of the
vehicle had not committed any traffic violations. (Tr.
34, 334).
Day initiated the stop on a county road by activating
his lights and siren. (Tr. 220, 239). Marling did not
make any attempt to evade Day and stopped. (Tr. 19,
239). Marling identified himself when asked. (Tr.
1 Marling’s Brief was due on July 4, 2014 which is a state holiday.

July 5 and 6 were a Saturday and Sunday respectively.

134a
239). He complied with each of officer Day’s orders to
open the car door, back toward officer Day, place his
hands behind his head and go to the ground. (Tr. 228–
29). Marling was then taken into custody and
transported to the county jail. (Tr. 233).
The black Avenger was then searched. Initially,
officer Day searched the passenger compartment of
the vehicle and found a handgun. (Tr. 28, 230). After
Marling was taken into custody, Sergeant Kipper of
the North Vernon Police Department conducted a full
search of the vehicle and all containers there in. (Tr.
255). In the passenger compartment Kipper found
syringes, assorted pills, cell phones and $1,000 in cash.
(Tr. 258–263). In the trunk, Kipper found two rifles
and a blue duffle bag. (Tr. 263). Kipper opened the
blue duffle bag and found syringes and a locked metal
box. (Tr. 263). Kipper opened the locked metal box
and found syringes and a baggie containing powder.
(Tr. 264).
The powder was tested and confirmed to be .51
grams of a cocaine benzocaine mixture. (Tr. 355). The
amount was less than a teaspoon and there was no
way to determine the ratio of cocaine to benzocaine.
(Tr. 303, 369). The pills were tested in the lab and
were confirmed to be controlled or prescribed
medication including clonazepam, hydroxyzine and
guanfacine. (Tr. 362, 366, 367). There was no
evidence presented that Marling had a prescription for
these medications.
Additional facts will be provided as necessary.

135a
SUMMARY OF ARGUMENT
Marling was arrested on a failure to appear
warrant. Law enforcement made no effort to allow
Marling or anyone else to provide for removal of his
vehicle from the roadway where he was pulled over.
The state failed to meet its burden of demonstrating
law enforcement’s need to impound and inventory the
vehicle. During the inventory, law enforcement pried
open a locked container and opened a luggage bag.
Law enforcement presented no need for invading these
containers other than the desire to rummage for
evidence. As a result of the improper impoundment
and exceeding the scope of proper inventory, all
evidence obtained as a result of the search should have
been suppressed.
Marling was found to be in possession of almost ½
of a gram of cocaine. This amount was too small to
infer the intent to distribute especially in light of this
Court’s prior case law that has overturned convictions
where the defendant was in possession of three times
as much cocaine. The state failed to provide sufficient
evidence to support a conviction for possession of
cocaine with intent to deal.
Marling was convicted for dealing cocaine. This was
Marling’s first conviction for dealing in a controlled
substance. Marling was found to be a habitual
offender although a first offense for dealing should not
be subject to the sentence enhancement. The trial
court’s basis for allowing the enhancement was the
presence of a handgun offense. The statutes that
govern this issue are confusing and ambiguous. Under
the rule of lenity, Marling’s habitual offender
enhancement should be reversed.

136a
ARGUMENT
A.

Whether Evidence Obtained From Closed
and Locked Containers During an
“Inventory Search” Should Have Been
Excluded From Admission.

The standard used to review rulings on the
admissibility of evidence is effectively the same
whether the challenge is made by a pretrial motion to
suppress or by a trial objection. Burkes v. State, 842
N.E.2d 426 (Ind. Ct. App. 2006), trans. denied. This
Court will review a denial of a motion to suppress for
abuse of discretion and reverse only where the decision
is clearly against the logic and effect of the facts and
circumstances. Joyner v. State, 678 N.E.2d 386 (Ind.
1997). Review does not include reweighing the
evidence. Burkes v. State, 842 N.E.2d 426.
In order to conduct an inventory search, law
enforcement must have a legitimate basis for
impounding the vehicle. If law enforcement impounds
a vehicle and conducts an inventory search when: 1.)
there is no shortage of time or emergency, 2.) it is
unlikely the car will be moved, and 3.) law
enforcement is not involved in a valid community care
taking function, then the impoundment and resulting
search are unreasonable. Brown v. State, 653 N.E.2d
77 (Ind. 1995). Simply being parked illegally is not
sufficient, it is the state’s burden to demonstrate a
vehicle constituted a public hazard. Taylor v. State,
842 N.E.2d 327 (Ind. 2006).
In Marling’s case the state presented no evidence of
the need for an impoundment and inventory of the
vehicle. Marling’s vehicle was partially pulled off of
the roadway. (Tr. 20). Other vehicles were able to

137a
pass the vehicle. (Tr. 20, 240). Law enforcement made
no effort to remove the vehicle by means of a licensed
driver and gave Marling no opportunity to provide an
alternate driver. Under these circumstances the
impoundment and inventory were unreasonable.
Despite being renamed as an “inventory,” any
search by law enforcement must pass constitutional
muster. Under Article I, Section 11 of the Indiana
Constitution, this court will consider the following
factors in assessing reasonableness of a search: 1) the
degree of concern, suspicion, or knowledge that a
violation has occurred, 2) the degree of intrusion the
method of the search or seizure imposes on the
citizen’s ordinary activities, and 3) the extent of law
enforcement needs. Litchfield v. State, 824 N.E.2d
356, 361 (Ind. 2005).
In assessing an inventory search of a locked box this
Court has previously held that such searches violate
the Indiana Constitution. State v. Lucas, 859 N.E.2d
1244, 1251 (Ind. Ct. App. 2007). This Court agreed
with the Lucas trial court that when officers had
“control of the locked box and could have easily
obtained a search warrant to open it” the warrantless
search of the locked metal box was unreasonable
under Article I, Section 11 of the Indiana Constitution.
In Marling’s case the “inventory” search of the duffel
bag and locked box in the trunk was unreasonable.
For both items the degree of concern or suspicion was
low or non-existent. Marling was pulled over as a
result of a warrant and no violations of the law had
actually been observed by the arresting law
enforcement. (Tr. 34). The officer who conducted the
search apparently had no knowledge about the basis

138a
for the stop and was there only to log “items of value.”
(Tr. 255). Unless the state is willing to concede that
the inventory search was merely a pretext for
“rummaging around” to look for evidence, then there
was no degree of concern or suspicion which would
support the search.
The degree of intrusion into the privacy of a citizen
is very high. While admittedly the degree of intrusion
is slightly different when the method of obtaining
access to a duffle bag involves only unzipping the bag,
whereas the degree of intrusion into a locked box
involves breaking the box open with a screw driver; in
both cases the state is invading a closed container that
on its face is intended to house personal possessions.
The state cannot seriously contend that the degree of
intrusion is low when the container itself must be
broken to gain access. (Tr. 263–264).
The extent of law enforcement need was zero. As
pointed out in Lucas, the state could have very easily
obtained a search warrant for the containers. The only
basis for the law enforcement need was “standard
operating procedure.” (Tr. 254). Yet, the SOP
apparently allows for an “inventory search” in the
event of an “abandoned care,” or a “driver
hospitalization.” (Tr. 13 Ex. 5). What need law
enforcement has for tearing open locked containers in
these circumstances is not clear in the SOPs and was
not presented at trial.
The reality is that law enforcement simply wanted
access so that it could rummage through Marling’s
personal belongings in the search for incriminating
evidence. Under the circumstances, the invasion of
Marling’s personal property was unreasonable. The

139a
contents of the duffel bag and locked box should have
been suppressed. These items contained a substantial
portion of the evidence used to convict Marling of
dealing and possession of cocaine charges. As a result
these convictions should be reversed or alternatively
the case should be remanded for retrial.
B.

Whether the Evidence was Sufficient to
Support a Conviction for Dealing

Marling’s most serious conviction was count I,
possession of cocaine with intent to deliver. Marling
received a 13 year sentence on the associated B felony
conviction. The evidence produced at trial supported,
at best, a conviction for possession of approximately ½
of a gram of cocaine. As a result, Marling’s conviction
should be reversed and the case remanded for
resentencing on the remaining counts.
Marling recognizes that the standard of review for
sufficiency claims is well settled. This Court will
neither reweigh the evidence nor judge the credibility
of the witnesses. Cox v. State, 774 N.E.2d 1025, 1029
(Ind. Ct. App. 2002). Only the evidence most favorable
to the judgment and the reasonable inferences that
can be drawn therefrom will be considered. Id. Where
there is substantial evidence of probative value to
support the judgment, it will not be disturbed. Armour
v. State, 762 N.E.2d 208, 215 (Ind. Ct. App. 2002),
trans. denied.
The State bears the burden of proving intent to
deliver beyond a reasonable doubt. This can be done
by direct or circumstantial evidence.
When
attempting to prove the case by circumstantial
evidence, weight of a controlled substance is a key fact
in making an inferential leap that the person who

140a
possessed the controlled substance intended to deal it.
For example, in Johnson v. State, 594 N.E.2d 817 (Ind.
Ct. App. 1992) the Court held that 1.76 grams of
cocaine in the defendant’s possession was insufficient
to establish intent to deliver. Id. at 818.
Similarly, in Isom v. State, 589 N.E.2d 245 (Ind. Ct.
App. 1992) a search of the defendant’s vehicle
revealed .88 grams. Id. at 247–248. The cocaine was
found in ten plastic baggies which the Court noted is
the type of container in which cocaine is commonly
packaged for sale and the type of containers in which
cocaine is commonly purchased. Id. 248. The Court
held that the evidence as a matter of law was
insufficient to reasonably support the inference that
the defendant possessed the .88 grams of cocaine with
the intent to deliver. Id.
In Marling’s case there was no direct evidence of an
intent to deal. Marling was not seen selling or
transferring the controlled substance to another.
Marling made no incriminating statements about
dealing. No witness testified to having seen Marling
deal cocaine or discuss dealing cocaine. Instead the
State relied upon circumstantial evidence.
While it is true that Marling had more than $600 on
his person and a handgun was found in the vehicle, the
evidence regarding the cocaine itself was insufficient
to support a conviction. (Tr. 234, 241). Marling was,
at best, in possession of less than 0.6 grams of cocaine.
(Tr. 303). This amount was approximately 1/3 of the
amount discovered in the Johnson case and less than
the amount discovered in the Isom case. The search of
the vehicle also turned up metal spoons which,
according to law enforcement, are consistent with use

141a
of cocaine. (Tr. 296). Syringes were found, which
again is consistent with use of the substance. (Tr.
279).
Taken together, even in the light most favorable to
the judgment, Marling’s possession of approximately
½ a gram of cocaine, in the context of possession of
paraphernalia associated with use, is not sufficient to
sustain a conviction for dealing in cocaine. Marling
respectfully request the Court reverse his conviction
on count I and remand for resentencing on the
remaining counts.
C.

Whether Marling’s Sentence Could Be
Enhanced For A First Time Dealing
Offense

The State sought a habitual offender sentence
enhancement on Marling’s conviction under count I,
possession of cocaine with intent to deliver. The
State’s request falls under Ind. Code Sec. 35-50-2-8
which does not allow for a habitual offender
enhancement when:
(3)

all of the following apply:
(A)
The offense is an offense under IC 1642-19 or IC 35-48-4.
(B)
The offense is not listed in section
2(b)(4) of this chapter.
(C)
The total number of unrelated
convictions that the person has for:
(i)
dealing in or selling a legend drug
under IC 16-42-19-27;
(ii)
dealing in cocaine or a narcotic
drug (IC 35-48-4-1);

142a
(iii)

(iv)

(v)

dealing in a schedule I, II, III
controlled substance (IC 35-48-42);
dealing in a schedule IV
controlled substance (IC 35-48-43); and
dealing in a schedule V controlled
substance (IC 35-48-4-4); does not
exceed one (1).

Dealing in cocaine is an offense under Ind. Code Sec.
35-48-4 et. al. thus subsection (A) is satisfied. It is
uncontested that Marling’s prior felony history was
comprised of a 1998 conviction for burglary, a 2007
conviction for felony handgun possession, a 2010
conviction for felony operating while intoxicated and a
2010 conviction for dissemination of matter harmful to
minors. (Tr. 685–686, App. 116–121). None of these
convictions were for dealing offenses, thus subsection
(C) is satisfied. The only remaining question is
whether or not Marling’s offense falls under Ind.
Code Sec. 35-50-2-2(b)(4). If not, then Marling’s
sentence was improperly enhanced.
The State argued that Marling’s conviction fell
under Ind. Code Sec. 35-50-2-2(b)(4)(O) which lists
the offense “dealing in cocaine or a narcotic drug (IC
35-48-4-1) if the court finds the person possessed a
firearm (as defined in IC 35-47-1-5) at the time of the
offense...” (Tr. 578). The trial court determined that
the jury had in fact found that Marling “possessed a
firearm at the time of the offense.” (App. 81) the trial
court reasoned that because the jury found Marling
guilty of count II, possession of cocaine while in
possession of a firearm, the jury necessarily must have
determined that Marling possessed the firearm at the

143a
time of the “dealing offense.” (App. 82). The trial court
went further to make its own finding that Marling did
in fact “possess a firearm at the time of the offense,”
indicating that the statute seems to leave that
determination in the hands of the trial court. (App.
82).
There is a limited amount of case-law addressing
the language of Ind. Code Sec. 35-50-2-2(b)(4)(O).
The trial court expressed frustration with the statute
as being in need of redrafting (Tr. 681). The problem
is that subsection (O) is that the legislature seems to
proscribing certain conduct. But the statute fails to
clearly explain what conduct is proscribed although
the legislator has demonstrated its ability to define the
criminal conduct in other similar statutes.
For example, in the same statute, Ind. Code Sec.
35-50-2-13 allows for the State to “seek, on a page
separate from the rest of a charging instrument, to
have a person who allegedly committed an offense of
dealing in a controlled substance under IC 35-48-41…sentenced to an additional fixed term of
imprisonment if the state can show beyond a
reasonable doubt that the person knowingly or
intentionally...possessed a...handgun in violation of IC
35-47-2-1.”
Similarly, Ind. Code Sec. 35-48-46(b)(1)(B) makes it a class C felony for “A
person...knowingly
or
intentionally
possesses
cocaine...[and]...the person was also in possession of a
firearm.”
In both of these circumstances the
legislature has clearly stated what conduct is
prohibited and how the State may go about charging
and proving the offense.

144a
Under the rule of lenity this Court will construe
criminal statutes strictly against the state and resolve
ambiguities in favor of the accused. Shuai v. State,
966 N.E.2d 619, 628 (Ind. Ct. App. 2012), trans.
denied. A criminal defendant accused of a first time
dealing in a controlled substance offense is faced with
an ambiguous and confusing habitual offender
statute.
The legislature clearly knows how to
proscribe possession of a handgun as an element of a
substance offense, but did not do so in the case of
dealing in a controlled substance. The legislature
clearly knows how to set out the requisite standard of
proof for possession of a handgun as a sentence
modifier, but did not do so in the case of the habitual
offender statute. In light of the inherent ambiguity
the statute should be strictly construed against the
state and Marling’s habitual offender sentence
enhancement should be reversed.

145a
CONCLUSION
For each of the foregoing reasons Marling
respectfully requests the Court reverse all of his
convictions as flowing from an illegal search, reverse
his conviction for dealing in a controlled substance and
remand for resentencing on the remaining counts as a
result of the insufficiency of the evidence, and reverse
his habitual offender enhancement and order it
removed from Marling’s sentence.
Respectfully submitted,
ALCORN GOERING & SAGE, LLP
/s/ R. Patrick Magrath
R. Patrick Magrath 26467-53
Attorney for Appellant
One West Sixth Street
Madison, Indiana 47250
(812) 273-5230 Fax (812) 273-6844

146a
STATE OF
INDIANA
COUNTY OF
JENNINGS

)
)
)
)
)

IN THE JENNINGS
CIRCUIT COURT
SS:
CAUSE NO. 40C011305-FA-007

STATE OF INDIANA
Plaintiff,
-vsRAYMOND RYAN
MARLING,
Defendant.
ORDER OF SENTENCE
The State of Indiana appears by its Chief Deputy
Prosecuting Attorney, Drew Dickerson, and the
Defendant, Raymond Ryan Marling, appears in person
and by counsel, Bradley Kage. The Defendant having
been found of guilty by a jury on October 23, 2013 of
the following charges:
(Phase I):
Count I-Unlawful Possession of Cocaine With the
Intent to Deliver, a Class B felony1;
Count II-Unlawful Possession of Cocaine While in
Possession of a Firearm a Class C felony;
Count III-Carrying a Handgun Without a License, a
Class A misdemeanor;

1

This count was originally charged as an A felony, but amended
to a B felony on October 16, 2013.

147a
Count IV-Unlawful Possession of Controlled
Substance, Schedule IV (Clonazepam), a Class D
felony,
Count VI-Unlawful Possession or Use of a Legend
Drug (Intuniv or Guanfacine), a Class D felony;·
Count VII-Unlawful Possession or Use of a Legend
Drug (Hydroxyzine), a Class D felony; and
Count VIII-Unlawful Possession of Syringe, a Class
D felony;
and the Court having entered judgments of conviction
for the above convictions;
and the jury having reconvened for Phase II on
October 23, 2013, and having found the Defendant
guilty of:
(Phase II):
Count IX-Possession of a Handgun By A Felon, a
Class C felony;
and the Court having entered Judgment of Conviction
on October 23, 2013 for Count IX;2 and the jury having
reconvened for Phase III on October 24, 2013, and
having found:
(Phase III)
The Defendant is a Habitual Offender;
and the Court having entered judgment finding the
Defendant to be a Habitual Offender on that date, the
parties now appear for purpose of sentencing.3

2

This charge was not originally labeled Count IX. The Court did
so for clarity for the jurors.

3

The Court erred on the side of caution and trifurcated this trial.

148a
The Court, after hearing, now merges the conviction
in Count II with Count I for purpose of sentencing and
merges the conviction in Count III with Count IX for
purpose of sentencing.4
The Court, having reviewed the Pre-sentence
Investigation Report prepared by the Probation
Department, having heard evidence, and having heard
the arguments of counsel, finds the following
aggravating factors: the Defendant has seven (7) prior
misdemeanor convictions, four (4) prior felony
convictions, four (4) successful revocations of
probation, one (1) prior juvenile delinquency
adjudication; the Defendant has no valid driver’s
license; previous substance abuse treatment at
Richmond State Hospital failed; and the Defendant
was out on bail from Jackson County when arrested in
this case. The Court finds the following mitigating
factors: the Defendant is a high school graduate; the
Defendant has completed multiple programs while at
the Jennings County Jail; the Defendant has been
gainfully employed most of his adult life; and the
Defendant assisted in locating a missing person in this
County. The Court, in weighing the aggravating
factors and the mitigating factors, finds the
aggravating factors outweigh the mitigating factors
and justify the imposition of a sentence in excess of the
advisory sentence.
1.) The Defendant is sentenced to the Indiana
Department of Correction as follows:

4

The two (2) felonies used to support the Habitual and the felony
used to support Count IX were all different.

149a
Count I-Unlawful Possession of Cocaine With the
Intent to Deliver-thirteen (13) years, to be served
consecutively to the Habitual Offender and Count IX
and 36C01-1112-FD-340, but concurrently to Counts
IV, VI, VII and VIII;
Habitual Offender (attached to Count I)-twenty (20)
years to be served consecutively to Count I and Count
IX and 36C01-1112-FD-340, but concurrently to
Counts IV, VI, VII and VIII;
Count IV-Unlawful Possession of Controlled
Substance-twenty-one (21) months, to be served
consecutively
to
36C01-1112-FD-340
and
concurrently to Counts I, VI, VII, VIII and IX and
Habitual Offender;
Count VI-Unlawful Possession or Use of a Legend
Drug (Intuniv or Guanfacine)­ twenty-one (21)
months, to be served consecutively to 36C01-1112FD-340 and concurrently to Counts I, IV, VII, VIII
and IX and Habitual Offender;
Count VII-Unlawful Possession of Use of a Legend
Drug (Hydroxyzine), twenty-one (21) months, to be
served consecutively to 36C01-1112-FD-340 and
concurrently to Counts I, IV, VI, VIII and IX and
Habitual Offender;
Count VIII-Unlawful Possession of Syringe- twentyone (21) months, to be served consecutively to 36C011112-FD-340 and concurrently to Counts I, IV, VI,
VII, and IX and Habitual Offender;
Count IX-Possession of a Handgun by a Felon-five
(5) years, to be served consecutively to Count I and
Habitual Offender and 36C01-1112-FD-304, and
concurrently to Counts IV, VI, VII and VIII;

150a
2.) The Defendant shall receive credit for three
hundred one (301) actual days for days served in the
Jennings County Jail (4/25/13 – 2/19/14).
3.) The Defendant shall, within seven (7) days from
the date of sentencing, provide a DNA sample as
arranged by the Probation Department. Failure to
comply with this requirement is a violation of
probation.
4.) The Defendant shall pay the sum of One
Hundred Dollars ($100.00) as a fine and One Hundred
Sixty-six Dollars ($166.00) as court costs, a Forty-five
Dollar ($45.00) Jennings Courts Security Fund Fee,
and a Drug Abuse Prosecution and Interdiction Fee of
Two Hundred Dollars ($200.00).
5.) The Defendant shall pay the sum of One
Hundred Dollars ($100.00) to the Supplemental Public
Defender’s Fund.

151a
STATE OF
INDIANA
COUNTY OF
JENNINGS

)
)
)
)
)

IN THE JENNINGS
CIRCUIT COURT
SS:
CAUSE NO. 40C011305-FA-007

STATE OF INDIANA
Plaintiff,
-vsRAYMOND RYAN
MARLING,
Defendant.
JUDGMENTS OF CONVICTION
The State of Indiana appears by its Chief Deputy
Prosecuting Attorney, Drew Dickerson, and the
Defendant, Raymond Ryan Marling, appears in person
and by counsel, Bradley Kage.
The jury returns into open court with the following
verdicts:
“We the jury, find the Defendant, Raymond Ryan
Marling, guilty of the charges of
“Count I-Unlawful Possession of cocaine With the
Intent to Deliver, a Class B felony;
Count II-Unlawful Possession of Cocaine While in
Possession of a Firearm, a Class C felony;
Count III-Carrying a Handgun Without a License, a
Class A misdemeanor;

152a
Count IV-Unlawful Possession of Controlled
Substance, Schedule IV (Clonazepam), a Class D
felony;
Count VI-Unlawful Possession of Use of a Legend
Drug (Intuniv or Guanfacine), a Class D felony;
Count VII-Unlawful Possession or Use of a Legend
Drug (Hydroxyzine), a Class D felony;
Count VIII-Unlawful Possession of Syringe, a Class
D felony;
IT IS NOW ORDERED AND ADJUDGED by the
Court that the Defendant, Raymond Ryan Marling, is
a competent male person, thirty-three (33) years of
age, is guilty of the charges above.
ALL OF WHICH IS ORDERED THIS 23rd DAY OF
OCTOBER, 2013.
/s/ Jon W. Webster
JON W. WEBSTER, Judge
Jennings Circuit Court
cc:
File
Prosecuting Attorney
Bradley Kage
Probation Dept.
Sheriff, Jennings Co.

153a
STATE OF
INDIANA
COUNTY OF
JENNINGS

)
)
)
)
)

IN THE JENNINGS
CIRCUIT COURT
SS:
CAUSE NO. 40C011305-FA-007

STATE OF INDIANA
Plaintiff,
-vsRAYMOND RYAN
MARLING,
Defendant.
JUDGMENT OF CONVICTION
The State of Indiana appears by its Chief Deputy
Prosecuting Attorney, Drew Dickerson, and the
Defendant, Raymond Ryan Marling, appears in person
and by counsel, Bradley Kage.
The jury returns into open court with the following
verdicts:
“We the jury, find the Defendant, Raymond Ryan
Marling, guilty of the charge of Possession of a
Handgun by A Felon, a Class C felony.”
ALL OF WHICH IS ORDERED THIS 23rd DAY OF
OCTOBER, 2013.
/s/ Jon W. Webster
JON W. WEBSTER, Judge
Jennings Circuit Court

154a
cc:
File
Prosecuting Attorney
Bradley Kage
Probation Dept.
Sheriff, Jennings Co.

155a
STATE OF
INDIANA
COUNTY OF
JENNINGS

)
)
)
)
)

IN THE JENNINGS
CIRCUIT COURT
SS:
CAUSE NO. 40C011305-FA-007

STATE OF INDIANA
Plaintiff,
-vsRAYMOND RYAN
MARLING,
Defendant.
JUDGMENT OF CONVICTION
The State of Indiana appears by its Chief Deputy
Prosecuting Attorney, Drew Dickerson, and the
Defendant, Raymond Ryan Marling, appears in person
and by counsel, Bradley Kage.
The jury returns into open court with the following
verdicts:
“We the jury, find the Defendant, Raymond Ryan
Marling, guilty of the charge of Possession of a
Handgun by A Felon, a Class C felony.”
ALL OF WHICH IS ORDERED THIS 23rd DAY OF
OCTOBER, 2013,
/s/ Jon W. Webster
JON W. WEBSTER, Judge
Jennings Circuit Court

156a
cc:
File
Prosecuting Attorney
Bradley Kage
Probation Dept.
Sheriff, Jennings Co.

157a

APPENDIX O
North Vernon Police Department
101 N. Madison AVE
North Vernon, IN 47265
Phone 812-346-1466 Fax 812-346-0903
Incident / Offense Report
CN2013-0569
Print Date/Time:
4/26/2013 12:20
Narrative Type:
Topic:
Supplement
Narrative Officer:
Narrative Date/Time:
Kipper, Craig 16
4/26/2013
10:15
I, Sergeant Craig Kipper, arrived to assist with the
traffic stop. I arrived as Mr. Marling was being placed
into Officer Day’s patrol vehicle. I was told that there
was a handgun between the drivers seat and the
center console.
After the scene was secure, I, Sergeant Kipper
began an inventory of the vehicle per our departments
policy. I secured the handgun and make it safe and
removed it from the vehicle.
In the center console of the vehicle were several cell
phones with chargers. A cell phone was also found in
the passenger side glove box. Another cell phone was
found in the trunk of the vehicle.
In the center console of the vehicle was an Olympus
digital voice recorder (VN8000PC) and a San Disk SD
memory card in a plastic case.

158a
In the floor board of the passenger side was a black
computer bag. The bag contained a Dell laptop. The
black bag contained three memory sticks. A black Star
Wars Jump Drive memory stick, a black San Disk 8
GB, and a red PNY 8 GB memory stick. Also in the
computer bag was a San Disk SD memory card in a
plastic case. The bag also contained one thousand
($1000) dollars wrapped in rubber bands.
In the center console of the vehicle was a clear
plastic bag that contained several syringes. Also in the
console were two white round oblong pills that were
later identified as Clonazepam (Schedule IV) as well
as two yellow round pills that were also identified as
Clonazepam (Schedule IV).
Also in the center console was a prescription bottle
that belonged to Hunter Bailey. The pill container
contained twelve white oblong pills that were later
identified as Intuniv (Legend Drug), a pink and yellow
capsule identified as Hydroxyzine (Legend Drug), and
a blue and white capsule identified as Vyvanse
(Schedule II).
In the trunk of the vehicle were two firearm cases.
One case contained a black Saiga 7.62X39 rifle. The
other contained a Russian 7.62x54 wooden rifle with
black scope.
The trunk also had a blue duffle bag. The duffle bag
had several zipper pouches. Inside four different
pouches, syringes were located. Inside the duffle bag
was a box that contained several unopened bags of
syringes.
In the trunk was a silver square combination lock
box. The box was locked. The locked box was opened
with a screw driver. In the locked box was more

159a
syringes and several items that are used for the
ingestion of illegal substances. The box also contained
a white substance in a clear plastic bag. The
substance was packaged in a way that is consistent
with the dealing of illegal substances. The substance
later field tested positive for Cocaine.
Narrative Type:
Supplement
Narrative Officer:
Day, Jeffrey 06

Topic: Search Warrant
Narrative Date/Time:
4/26/2013 11:58

At about 7:30 PM, 04/25/2013, I [COVERED] an
Affidavit for Search Warrant.
In particular I
requested a Search Warrant be granted [COVERED],
Dell Lap Top Computer, Three Jump Drives, Two
Micro Sandisks and a Olympus Audio Recorder.
Once I contacted Jude Jon Webster and finished the
Affidavits, I went to his personal residence at about
8:00PM. Judge Jon Webster consented and granted by
signing the prepared documents.
I left the residence at about 8:15 PM, 04/23/2013.
I brought the documents back to the police station
where Richard T. Roseberry, Indiana State Police
administered a search for media contained in the
above mentioned items. This was initiated at about
8:30 PM.
Nothing Further.

160a

APPENDIX P

161a

162a

163a

164a

165a

